sar covers 1 and 4.qxd   10/26/12   3:42 PM   Page 1
This page intentionally left blank.
                               SEMIANNUAL
                              REPORT TO CONGRESS




Table of Contents
Message from the Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

Key Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

Implementation of the American Recovery and
Reinvestment Act of 2009 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

Other Significant Audits, Inspections, and Reviews . . . . . . . . . . . . . . . 12

Investigative Outcomes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

Positive Outcomes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
          Highlights Based on Office of Inspector General Work . . . . . . . . . . . . . . . 32
          Congressional Responses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34
          Legislative and Regulatory Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34
          Hotline System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34
          Management Referral System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35
          Qui Tams . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

Appendix 1 – Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36
          Recovery Act and Recovery Act-Related Reports . . . . . . . . . . . . . . . . . . . . 36
          Other Audit Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38
          Other Inspection Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41

Appendix 2 - Tables . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42
          Audit Reports with Recommendations for Better Use of Funds . . . . . . . . . 42
          Audit and Inspection Reports with Questioned Costs . . . . . . . . . . . . . . . . . 43
          Reports Lacking Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . 44
          Prior Significant Recommendations Not Implemented . . . . . . . . . . . . . . . . 44
          Summary of Investigative Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45
          Summary of Investigative Activities (con’t) – Hotline Activity . . . . . . . . . . 46
          Summary of Section 1553 Retaliation Complaints . . . . . . . . . . . . . . . . . . . 46
          Peer Reviews . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47




                                                   APRIL 1, 2012 – SEPTEMBER 30, 2012                              1
                                         SEMIANNUAL
                                         REPORT TO CONGRESS




Message from the Inspector General



                                     T
                                             he Department of Energy’s Office of Inspector General
                                             is pleased to submit its Semiannual Report to
                                             Congress for the period ending September 30, 2012.
                                     This report highlights key accomplishments, particularly
                                     pertaining to our efforts to work with agency management to
                                     ensure the economy, efficiency, and effectiveness of the
                                     Department of Energy programs and operations.

                                      For the past 3 years, we have been engaged in very challenging
                                      work related to the Department’s efforts to implement and
                                      execute its responsibilities under the American Recovery and
                                      Reinvestment Act of 2009 (Recovery Act). In this regard, the
Office of Inspector General issued 12 Recovery Act-related audit and inspection reports during this
semiannual period, for a total of nearly 90 reports since the implementation
of the Recovery Act. The Office of Inspector General has also initiated
a number of investigations related to Recovery Act funds over the past
3 years. In conjunction with our Recovery Act efforts, our work
will continue to focus on traditional agency missions, including
environmental remediation, stockpile stewardship, worker and
community safety, cyber security and various aspects of contract
and program management.

We look forward to working with the agency’s leadership team in advancing
the mission of the Department in an effective and efficient manner.




                                                  Gregory H. Friedman
                                                  Inspector General




 2     OFFICE OF INSPECTOR GENERAL
                             SEMIANNUAL
                             REPORT TO CONGRESS




     Key Accomplishments
     For the Period of April 1, 2012 – September 30, 2012


Total Reports Issued:                                                           46
      Recovery Act Reports                                                      12
      Audit Reports                                                             28
      Inspection Reports                                                         6

Funds Put to Better Use                                              $11.8 million

Questioned Costs                                                   $570.8 million

Dollars Recovered (Fines, Settlements, and Recoveries)              $19.4 million

Criminal Convictions                                                            14

Suspensions and Debarments                                                      13

Potential Recoveries from Open False
Claims Act Investigations                                           $91.2 million

Civil and Administrative Actions                                                47

Hotline Complaints and Inquiries
     Received                                                               2,654
     Processed Immediately/Redirected/No Further Action                     2,380
     Processed for Further Review and Adjudication                            263

Recovery Act Whistleblower Retaliation Complaints Received                       5




                                           APRIL 1, 2012 – SEPTEMBER 30, 2012        3
                                            SEMIANNUAL
                                            REPORT TO CONGRESS



                     Implementation of the American
                     Recovery and Reinvestment
                     Act of 2009
 Reports

The Department's Clean Cities Alternative Fuel Vehicle Grant
Program Funded under the Recovery Act

Under the Recovery Act, the Department of Energy’s (Department) Clean Cities Alternative Fuel Vehicle
Grant Program (Clean Cities Program) received nearly $300 million, or 30 times its Fiscal Year (FY) 2009
funding of approximately $10 million. From this amount, the Department awarded grants ranging from
$5 million to $15 million to 25 recipients, including Clean Cities coalitions and other entities that
partnered with coalitions. Clean Cities coalitions are volunteer groups that join with public and private
sector organizations to promote alternative and renewable fuels, fuel economy measures and new
technologies.

Our review disclosed that the Department followed established procedures for the solicitation, merit
review and selection of the Clean Cities Program projects; however, the Department had not always
effectively managed the use of Recovery Act funding and other post-award aspects of the Clean Cities
Program. In our review of seven recipients, we found that the Department had inappropriately reimbursed
a recipient about $1.5 million for costs incurred even though the costs were not substantiated, and
approved $615,000 in unsubstantiated cost-share contributions. We also found that the Department paid
one recipient $250,000 for a down payment on an alternative-fuel station that had been invoiced 3 months
prior to the grant's authorized spending date of July 2009, and approved a claim for $164,000 in cost-share
contributions even though the recipient lacked documentation supporting the reasonableness of costs.
Additionally, we found that the Department allowed three recipients to award almost $20 million without
documenting their decisions and/or without identifying potential conflicts of interest, as required by
Federal procurement regulations. In total, we questioned about $5 million in direct payments to recipients
and nearly $2 million cost-share contributions claimed by recipients.

Management disagreed with many of our findings and recommendations, specifically our conclusions
regarding policies and procedures governing procurements and potential conflicts of interest, and with
all of the questioned costs identified. Management also asserted that competition was not required.
Management concurred with our recommendation regarding recipient reimbursement requests. We do
not believe that management's response fully and satisfactorily addressed our audit findings and
recommendations. (OAS-RA-12-12)



            Public reports are available in full text on our website at www.ig.energy.gov


 4     OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                            REPORT TO CONGRESS




The Department’s Recovery Act – New York State Energy Program

The Recovery Act significantly expanded the Department's State Energy Program (SEP) by providing an
additional $3.1 billion for state projects. The Department’s SEP provides grants to states, territories and
the District of Columbia (states) to support energy priorities and fund projects that meet the unique energy
needs of states. The New York State Energy Research and Development Authority (NYSERDA) was
allocated $123.1 million in SEP funds under the Recovery Act—a more than 63-fold increase over its
FY 2008 SEP grant of about $1.94 million. NYSERDA planned to use its grant funds to undertake
multiple energy efficiency and renewable energy programs and projects throughout the State of New York
(New York), and for subcontractors to oversee and validate certain projects.

For the most part, NYSERDA had implemented processes and controls to manage its SEP Recovery Act
funding and was generally in compliance with the selected Recovery Act requirements we examined during
our review. However, we identified several concerns that should be addressed to ensure that Recovery Act
goals are met. Specifically, our review revealed that NYSERDA had planned to advance over $1.2 million
to a contractor for work scheduled to be completed after April 30, 2012, the expiration date of
NYSERDA's Recovery Act grant, and had paid improper travel and unsupported costs of approximately
$12,825 to its contractors and subcontractors. Additionally, we noted that NYSERDA had been slow to
expend its grant funds, and as of December 22, 2011, it had expended only about 60 percent of the
award. We determined that NYSERDA may have difficulty expending the remaining funds before the
April 2012 expiration date of its Recovery Act grant.

NYSERDA already implemented corrective actions to address the issues identified in this report that, once
completed, will help maximize the effectiveness of its project management and evaluations efforts, and
expedite the stimulative effect of its Recovery Act expenditures. Energy Efficiency and Renewable Energy
(EERE) management concurred with our recommendations and stated that it would continue to closely
oversee the work carried out under New York's SEP. (OAS-RA-12-08)


The Department's Energy Efficiency and Conservation Block Grant
(EECBG) Funded under the Recovery Act for the City of Philadelphia

Under the Recovery Act, the EECBG Program received $3.2 billion in funding to help state and local
entities develop, implement and manage energy efficiency and conservation projects. The Department
awarded the City of Philadelphia (Philadelphia) $39.1 million, including $14.1 million in formula grant
funds and $25 million in a competitive grant. The formula grant projects include the Energy Works Loan
Fund, installation of bike racks, solar compacting litter baskets, and solar panel installation. The
competitive grant projects focused on a commercial retrofit program, a residential retrofit program, and an
energy management and communications program.

We found that Philadelphia could improve its management of Recovery Act block grants. Specifically, we
noted that Philadelphia erroneously transferred $2 million of public utility rebates earned on block grant
projects to its general fund to meet budget needs, incorrectly calculated the amount of interest owed to the



                                                           APRIL 1, 2012 – SEPTEMBER 30, 2012            5
                                            SEMIANNUAL
                                            REPORT TO CONGRESS




U.S. Department of the Treasury (Treasury) on competitive and formula funds advanced specifically for
block grant projects, and had not ensured that equipment purchased with Recovery Act funds was actually
installed as required in the grant agreements.

We made recommendations to address the issues identified during our audit and improve Philadelphia’s
management of its Recovery Act block grants. The comments and planned actions of the Department and
Philadelphia were responsive to our recommendations. (OAS-RA-12-09)


The Department's Weatherization Assistance Program Funded under
the Recovery Act for the State of New York

The Department awarded approximately $394 million in a Recovery Act weatherization grant to New York.
New York's Weatherization Assistance Program (Weatherization Program) is administered by the Division
of Housing and Community Renewal (DHCR) through 74 local entities. New York’s goal is to weatherize
approximately 45,000 units with Recovery Act funding, providing services to qualified elderly households,
persons with disabilities and families with children, on a priority basis. As of December 31, 2011,
New York officially reported spending $340.8 million to complete the weatherization of approximately
52,000 units.

During our audit, we found that DHCR had not always managed its Weatherization Program
efficiently, effectively, and in compliance with laws and regulations. Specifically, we found DHCR
had not ensured that local entities complied with Federal cash management requirements governing
requests for reimbursement, deposit of Federal funds in interest-bearing accounts and return of interest
earned on advances of Federal funds to the Department, and that information was maintained to track and
monitor the quality of weatherization services, and where appropriate, take corrective action on systemwide
deficiencies. In the absence of a system to identify underperforming contractors or weatherization measures
that were frequently deficient, New York's ability to take appropriate corrective action to improve services
was limited.

Management generally agreed with the report recommendations and proposed a number of corrective
actions, including updating policy and guidance to address these recommendations. (OAS-RA-12-07)


The Department's Weatherization Program under the Recovery Act
in the State of Ohio

Under the Recovery Act, the Department's Weatherization Program received $5 billion to increase the
energy efficiency of dwellings owned or occupied by low-income persons. The Department awarded a
3-year, $267 million Recovery Act weatherization grant to the State of Ohio's (Ohio) Department of
Development.

             Public reports are available in full text on our website at www.ig.energy.gov


 6     OFFICE OF INSPECTOR GENERAL
                                            SEMIANNUAL
                                            REPORT TO CONGRESS




We analyzed Ohio's management of its Recovery Act Weatherization Program and reviewed the
weatherization activities of three local agencies, IMPACT Community Action (IMPACT), the Community
Action Partnership of the Greater Dayton Area (Dayton), and Cuyahoga County of Ohio Department of
Development (Cuyahoga). In September 2011, we issued separate examination reports on Dayton and
Cuyahoga. The examinations were performed by Lopez and Company, LLP, an independent public
accounting firm under contract with the Office of Inspector General (OIG), and the results of these
examinations were incorporated into this report to provide a statewide summary of findings.

We determined that Ohio had not always managed its Weatherization Program efficiently and effectively.
We identified weaknesses that impacted Ohio's ability to meet the objectives of the Weatherization Program
and the Recovery Act. Specifically, Ohio and its local agencies had not always provided quality
weatherization services and had not always procured materials, equipment and services in accordance with
Federal and State requirements. Additionally, Ohio and its local agencies had not always ensured that
recipients were selected for weatherization services based on their priority and that they met income
eligibility requirements, and that recipients complied with laws and regulations governing the
Weatherization Program.

We made a number of recommendations designed to improve Ohio's Weatherization Program. The
Department concurred with our recommendations and stated it will continue to work with Ohio to
implement corrective actions and resolve the issues described in the report. Ohio's comments were
generally responsive to our findings and conclusions. IMPACT responded that all deficiencies noted in the
report were addressed and corrected. (OAS-RA-12-13)


The Department's Recovery Act – Ohio State Energy Program

The State of Ohio's, Ohio Department of Development (ODOD) was allocated $96.1 million in SEP
funds under the Recovery Act. The OIG contracted with an independent certified public accounting
firm, Otis & Associates, PC (Otis), to perform the examinations and express an opinion on selected Ohio
sub-grantees' compliance. The four sub-grantees selected were New Horizons Baking Company (NHBC),
Metro Regional Transit Authority (MRTA), Forest City Residential Management, Inc., and
Timken Company.

Otis expressed the opinion that except for the weaknesses described in its reports to NHBC and MRTA,
each of the sub-grantees complied in all material respects with the requirements and guidelines relative to
SEP. Regarding the areas of non-compliance, the examination found that NHBC did not comply with the
Davis-Bacon Act requirements to pay locally prevailing wage rates and MRTA did not separate Recovery
Act funding from other sources of funding, as required.

Management concurred with our recommendations and committed to implementing corrective actions to
address these issues. (OAS-RA-L-12-07)




                                                           APRIL 1, 2012 – SEPTEMBER 30, 2012           7
                                             SEMIANNUAL
                                            REPORT TO CONGRESS




The Department's Recovery Act – Tennessee State Energy Program

The State of Tennessee's Department of Economic and Community Development (Tennessee) received
$62.5 million in Recovery Act SEP grant funds. This was a significant increase from the $467,000 received
prior to the Recovery Act.

We found that Tennessee had developed processes and controls to manage its SEP Recovery Act grant.
However, we determined that, contrary to Federal requirements, Tennessee provided funds to the University
of Tennessee (University) in excess of what was immediately needed to pay for actual expenses. In
December 2011, the University and the University of Tennessee Research Foundation (Research
Foundation) had about $18.3 million of unexpended grant funds in their possession. Further, the
University and Research Foundation had earned over $650,000 in interest on these funds and had not
remitted any of the interest to the Government. Our review also noted that a substantial amount of funds
provided for Solar Institute initiatives had not been spent, calling into question whether the funds could be
expended before expiration of the grant. Additionally, in January 2012, Tennessee requested that the
Department extend the SEP grant through September 2013. The Department approved Tennessee's
request in February 2012.

The contracting officer recovered the interest earned and provided direction to minimize the amount of
time between the transfer of funds and disbursement, which addressed the issues we identified. However,
to help ensure that Recovery Act goals are met, we suggested that the Department closely monitor the
progress of Tennessee's grant and ensure that all Recovery Act funds are properly expended or returned to
the Department or Treasury, as appropriate. No formal recommendations were made in this report.
(OAS-RA-L-12-04)


The Department’s Recovery Act – Washington State Energy Program

EERE provides grants to states to support various energy priorities through the SEP. The Washington State
Department of Commerce (WSDC) was granted $60.9 million in SEP Recovery Act grant funds to invest
in state-level energy efficiency and renewable energy priorities.

The audit concluded that WSDC had, for the most part, used SEP grant funds in accordance with Federal
requirements and the Department's SEP grant program. However, we identified several issues that needed
to be addressed to ensure that WSDC and its sub-recipients fully comply with requirements and that the
goals of the Recovery Act are met. Specifically, 2 of the 10 projects reviewed did not provide adequate
support for invoices totaling $646,633 in travel expenses, professional services and other expenses; and
sub-grantees inconsistently reported jobs created or retained through the Recovery Act funding. Finally,
we noted that WSDC was unlikely to expend all of its Recovery Act funding for SEP projects by the
original grant deadline of April 30, 2012.



             Public reports are available in full text on our website at www.ig.energy.gov



 8     OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




Management concurred with the report recommendations, and stated that it is working with WSDC to
ensure that plans are implemented to address the report's recommendations. WSDC requested and was
granted an extension to spend the rest of its funds, and management will continue to monitor these areas in
regular oversight reviews. (OAS-RA-12-10)


The Department's Recovery Act – Missouri State Energy Program

In April 2009, EERE granted a $57.4 million award to the State of Missouri (Missouri) for its Recovery Act
SEP. Under the terms of the award, the funds were to be expended by March 31, 2012. We found that
Missouri developed a comprehensive SEP program and internal control structure designed to meet
Recovery Act objectives. Consistent with a number of other jurisdictions, however, Missouri encountered a
number of challenges that initially delayed progress of its SEP projects. In particular, Missouri encountered
delays in establishing contracts, hiring needed staff and in establishing its agriculture loan program. These
initial delays impacted the timely infusion of funds into the economy and affected overall grant
performance. Because of the delays in administering its grant, the Department ultimately gave Missouri an
additional 9 months to spend its funds. Given Missouri's progress at the time of our review, it appeared
that it was on-track to meet the Department's new, extended deadline. Because of actions taken by the
Department and Missouri to address the issues discovered during our audit, no formal recommendations
were made. (OAS-RA-L-12-06)


Inquiry into the Procurement of Law Firm Services and
Management of Law Firm-Disclosed Organizational Conflicts of
Interest by the Department's Loan Programs Office (LPO)

The Department's LPO was created to accelerate the domestic commercial deployment of innovative and
advanced clean energy technologies by guaranteeing and providing loans to eligible recipients. The LPO
currently oversees over $34 billion in loans to about 40 projects. The Department concluded that it needed
independent legal advisory services from private law firms to assist in its review of loan guarantee
applications, and in response to solicitations, it entered into Retainer Agreements with 10 firms that require
law firms to disclose any actual or potential conflicts of interest.

We received anonymous complaints alleging various improprieties in the LPO related to the procurement
of legal services and the management of law firm disclosed conflicts of interest in the Innovative Technology
Loan Guarantee Program (Loan Program). We initiated a special inquiry to review the circumstances
surrounding the allegations, which did not substantiate the specific allegations outlined in the complaint.
However, we identified opportunities to improve transparency over the Loan Program's management of
organizational conflict of interest waiver requests. Specifically, we noted that the Loan Program had not
deployed a tracking system for managing law firm waiver requests and had not documented, in an


             Public reports are available in full text on our website at www.ig.energy.gov



                                                            APRIL 1, 2012 – SEPTEMBER 30, 2012            9
                                              SEMIANNUAL
                                             REPORT TO CONGRESS




organized system of records, the rationale for denying or approving waiver requests. The issues observed
parallel the findings in prior Loan Program reviews.

Given the taxpayer-provided funds at risk in the Loan Program, the sensitivity of the Loan Program and its
reliance on outside law firm legal advice free from conflicts and impairments, we made recommendations to
address the issues identified in our report. Management concurred with our recommendations and
proposed corrective actions. (OAS-RA-12-14)


The Department's Transportation Electrification Program

The Department established the Transportation Electrification Program (TEP) to demonstrate and evaluate
the deployment of plug-in hybrid vehicles and the associated infrastructure needs. Funded by the Recovery
Act, the TEP provided about $400 million to 18 grant recipients—12 non-profit entities and 6 for-profit
entities. The grants were intended to further the development of the plug-in hybrid electric vehicle
industry in the United States, ensure achievement of the President's goal to have one million of these
vehicles on the road by 2015, and create thousands of jobs.

We found that the Department could improve its financial management of the TEP. Specifically, the
Department had not obtained and reviewed required financial and compliance audits and cost reports for
the TEP’s six for-profit recipients to determine the financial condition of the recipients, the reasonableness
of costs expended under the awards, and the adequacy of internal controls and compliance with laws and
regulations.

During our review, Department officials began to take action to address identified issues. No formal
recommendations were made in this report; however, we suggested that the EERE develop a system to track
the receipt and review of required audits and annual cost reports for the TEP. (OAS-RA-12-11)


Follow-up on the Department's Implementation of the Advanced
Batteries and Hybrid Components Program Funded under the
Recovery Act

Under the Recovery Act, the Department's Advanced Batteries and Hybrid Components Program
(Advanced Batteries Program) received almost $2 billion to support the construction of U.S.-based battery
and electric drive component manufacturing plants. In April 2010, we issued our first report on the
Advanced Batteries Program, Progress in Implementing the Advanced Batteries and Hybrid Components
Program under the American Recovery and Reinvestment Act (OAS-RA-L-10-04). We concluded that the
Department had made significant progress implementing the Advanced Batteries Program, including
developing a comprehensive monitoring system plan to reduce the financial, technical and marketing risks
associated with large-scale projects.




 10    OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                            REPORT TO CONGRESS




Based on our test work in this follow-up audit, we were unable to substantiate an allegation received during
the course of the audit related to a potential conflict of interest. However, we identified opportunities for
the Department to improve its administration of the Advanced Batteries Program. Specifically, the
Department could better define regulations governing the retention of documentation supporting
procurement decisions and ensure recipients adequately safeguard equipment purchased with Federal funds,
and obtain and review required audit reports to ensure the sufficiency of internal controls and compliance
with laws and regulations. The Department indicated that recent actions had been taken to obtain required
audit reports and clarify guidance related to those reports. No recommendations were made in this report;
however, we provided several suggestions to the Department to address the issues identified and improve
management of the Advanced Batteries Program. (OAS-RA-L-12-05)


 Whistleblower Retaliation

Section 1553 of the Recovery Act extends whistleblower protection to employees who believe they are, or
have been, retaliated against for reporting misuse of Recovery Act funds received by their non-Federal
employers. Specifically, an employee of any non-Federal employer, such as a private company or a State or
local agency, who reports information that the employee reasonably believes is evidence of waste, fraud or
abuse connected to the use of Recovery Act funds, may not be discharged, demoted or otherwise
discriminated against because of his or her disclosure. Unless the Inspector General determines that the
complaint is frivolous, does not relate to covered funds, or another Federal or State judicial or
administrative proceeding has previously been invoked to resolve such complaint, the Inspector General
shall investigate the complaint and issue a report of findings within 180 days.

The activity of the office is summarized in the chart on page 46.




             Public reports are available in full text on our website at www.ig.energy.gov



                                                           APRIL 1, 2012 – SEPTEMBER 30, 2012         11
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




                       Other Significant Audits,
                       Inspections, and Reviews
The Department's $12.2 Billion                          Although the Department had taken a number of
                                                        actions to address the deficiencies identified, we
Waste Treatment and
                                                        believed that additional actions were necessary to
Immobilization Plant –                                  verify the implementation and effectiveness of the
Quality Assurance Issues –                              corrective actions for black cell and hard-to-reach
Black Cell Vessels                                      vessels and prevent unnecessary risk to the
                                                        operation and mission of WTP. We made several
The OIG received allegations concerning                 recommendations to strengthen the Department's
aspects of the quality assurance program                quality assurance processes and to recoup
at the Department's Waste Treatment and                 performance fees paid for a nonconforming vessel.
Immobilization Plant (WTP) project in Hanford,          The Office of Environmental Management (EM)
Washington. Bechtel National, Inc. (Bechtel), is        concurred with the report's recommendations and
responsible for construction of the Department's        its comments were generally responsive to our
$12.2 billion WTP. The WTP mission is to treat          recommendations. Management officials noted
and encapsulate in glass the majority of the            improvements that were made since the last vessels
53 million gallons of waste that amassed from           were delivered and outlined a number of corrective
decades of plutonium production at the                  actions that have recently been initiated.
Department's Hanford Site.                              (DOE/IG-0863)

Our review substantiated the allegation. We
found that the Department procured and installed        Inquiry into the Security Breach
vessels in WTP that did not always meet quality         at the National Nuclear Security
assurance and/or contract requirements. For the         Administration's (NNSA) Y-12
vessels that we reviewed, we identified multiple
instances where quality assurance records were          National Security Complex
either missing or not traceable to the specific         (Y-12)
area or part of the vessel. We also found that
the Department paid the WTP contractor a                Y-12 is one of four production facilities in the
$15 million incentive fee for production of a vessel    NNSA's Nuclear Security Enterprise. The site
that was later determined to be defective.              focuses on the processing and storage of uranium,
Although the Department demanded return of the          an activity essential to the safety, security and
fee, it did not follow up on the matter and the fee     effectiveness of the U.S. nuclear weapons stockpile.
was never reimbursed. Weaknesses in quality             Y-12 maintains an extensive security mechanism
assurance records associated with black cell and        that relies on a well-trained and extensively
hard-to-reach processing vessels occurred because       equipped protective force, advanced technology,
of deficiencies in Bechtel's implementation of its      and a variety of physical fortifications.
quality assurance program and a lack of
Department oversight.                                   During the early morning hours of July 28, 2012,
                                                        three trespassers gained access to the area


 12    OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




surrounding the Highly Enriched Uranium                 conducts research into explosives detection, effects
Materials Facility (HEUMF) at Y-12 and defaced          and mitigation. These processes are inherently
the building without being interrupted by the           hazardous, and to help reduce the risk of harm,
security measures in place. Because of the              the Department developed the DOE Explosives
importance of ensuring the safe and secure storage      Safety Manual to provide direction for protecting
of nuclear materials, we commenced a special            its personnel from injury during explosives
inquiry into the circumstances surrounding the          operations.
Y-12 breach within days of the event.
                                                        Our inspection revealed problems with handling
During our review, we found that the Y-12               and storing explosives at each of the four
security incident resulted from multiple system         contractor-operated sites we visited, potentially
failures on several levels. For example, we             increasing the risk of harm to personnel and
identified troubling displays of ineptitude in          infrastructure. We also found that Department
responding to alarms, failures to maintain critical     management had not focused the attention
security equipment, over reliance on compensatory       necessary to ensure that the responsible facilities
measures, misunderstanding of security protocols,       contractors properly implemented Department
poor communications, and weaknesses in contract         policies for handling and storing explosives, as
and resource management. Contractor governance          required. For example, Savannah River Site and
and Federal oversight failed to identify and correct    Idaho National Laboratory performed explosive
early indicators of these multiple system               shipment inspections during peak traffic hours at
breakdowns. When combined, these issues                 populated main gates rather than at remote area
directly contributed to an atmosphere in which the      and/or during non-peak traffic hours, contrary to
trespassers could gain access to the protected          established practice designed to minimize the
security area directly adjacent to one of the           impact of inadvertent detonation. We also
Nation's most critically important and highly           observed that excess combustible and non-
secured weapons-related facilities.                     combustible materials were being stored in
                                                        explosives bunkers, incorrect bunker placards and
We made several recommendations that, when              fire symbols were posted on bunkers and
fully implemented, should aid in correcting             buildings, and excess explosives waste was not
security issues at the site. Management's               being disposed of in a timely manner. Also,
comments were responsive to the report and its          contractor officials charged with managing and
recommendations. (DOE/IG-0868)                          safeguarding explosives had not ensured
                                                        compliance with various aspects of the DOE
                                                        Explosives Safety Manual.
Management of Explosives at
Selected Department Sites                               In response to our findings, Department
                                                        management generally concurred with our
In support of its research and development              recommendations, and proposed and took
mission and security of its facilities, the             corrective actions to improve the safety at
Department maintains a significant inventory of         explosives storage and operating facilities.
explosives. In terms of mission, the Department         (INS-O-12-02)


             Public reports are available in full text on our website at www.ig.energy.gov



                                                          APRIL 1, 2012 – SEPTEMBER 30, 2012           13
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




Efforts by the Department to                            several recommendations to improve the
                                                        Department's ability to reduce energy usage and
Ensure Energy-Efficient
                                                        related costs associated with its computing
Management of its Data Centers                          environment. Management concurred with the
                                                        recommendations and indicated that it had
In pursuit of its varied set of highly technical        initiated actions to address issues identified during
missions, the Department and its prime                  our review. Management also stated that our
contractors rely heavily on various forms of            findings were reasonable and that the
information technology (IT) and related support         recommendations provided effective insight to
equipment and facilities, including numerous data       correct discrepancies and improve the energy
centers and server rooms throughout the                 efficiencies of the Department's data centers.
Department’s complex. Historically, data center         (DOE/IG-0865)
operations have been notorious users of massive
amounts of energy and, by nature, often require
specially configured physical space. As demand
has increased, the number of data centers has           The Department's Renewable
proliferated both within the Department and             Energy Efforts
throughout government. To address concerns
related to energy efficiency, economy of                In an effort to promote a generation of renewable
operations, and cyber security, the Federal             energy, the Energy Policy Act of 2005 (EPAct)
government established the Federal Data Center          requires that by FY 2013 at least 7.5 percent of a
Consolidation Initiative and the President issued       Federal agency's annual electricity consumption be
Executive Order 13514, Federal Leadership in            from renewable sources. In FY 2010, the
Environmental, Energy, and Economic Performance.        Department acquired approximately 461,000
                                                        megawatt hours from renewable sources,
We found that the Department had not always             representing over 9 percent of its annual electricity
managed its data centers and server rooms in an         consumption of 4.8 million megawatt hours.
energy-efficient manner. We determined that
organizations and sites had not always                  Although the Department's progress exceeded
implemented effective practices for space               EPAct requirements, our audit identified
configuration and utilization designed to improve       opportunities for improvement. Specifically, we
the energy efficiency of data centers. In addition,     found that despite EPAct's preference for
the Department continued to operate and                 producing renewable energy on Federal lands, the
maintain excess space within its data centers, a        Department relied almost exclusively on purchases
practice that led to further inefficiencies.            of renewable energy. The lack of large-scale on-
                                                        site projects occurred, at least in part, because of
Our review identified a number of opportunities         the challenges the Department faced in financing
for improvement and the Department took certain         renewable energy projects. Additionally, we found
actions to support the energy efficiency of its IT      that the sites may not have always purchased
infrastructure. However, additional effort is           renewable energy in the most cost-effective
necessary to ensure that all data centers are           manner. The Department had not ensured its sites
managed in an energy-efficient manner. We made          reported consistent and accurate renewable energy

             Public reports are available in full text on our website at www.ig.energy.gov


 14    OFFICE OF INSPECTOR GENERAL
                                              SEMIANNUAL
                                              REPORT TO CONGRESS




data. We also noted that the Department's                Laboratory, Oak Ridge National Laboratory and
guidance on renewable energy purchases did not           Los Alamos National Laboratory) had not always
provide advice regarding how to evaluate the             identified or implemented low- or no-cost, quick
different purchase options to ensure the sites           payback energy conservation measures discovered
procured the best value.                                 during facility evaluations. In addition, two of
                                                         the five sites (Oak Ridge National Laboratory and
Improvements in these areas could enhance the            Y-12) had not fully evaluated existing buildings to
Department's efforts to satisfy national priorities      determine, among other things, whether building
related to energy efficiency and could bolster its       systems such as heating and lighting were
reputation as a leader in the field. Management          operating as intended, despite specifically
concurred with our recommendations and                   identified savings and recommendations to do so.
identified actions it has taken or plans to take to      In regards to metering, we identified opportunities
address the issues identified. Specifically,             at two sites to improve energy conservation
management will continue to raise the power              through the use of electricity metering data.
purchase agreement term limit issue when                 Although a number of factors contributed to
appropriate, increase efforts to make sites more         instances of ineffective evaluations and electricity
aware of guidance on purchasing renewable                metering practices, effectively evaluating systems in
energy, and continue its efforts to improve              existing buildings and using electricity metering
reporting. Management's comments and actions             data could significantly reduce energy costs and
were responsive to our recommendations.                  increase energy efficiency across the Department.
(OAS-M-12-04)
                                                         We made several recommendations designed to
                                                         assist the Department in its efforts to conserve
                                                         energy and decrease costs through evaluations of
Opportunities for Energy
                                                         existing buildings and electricity metering.
Savings at Department’s                                  Management concurred with our
Facilities                                               recommendations and provided actions that will
                                                         be taken to address issues identified in our report.
Promoting energy efficiency is one of the                (DOE/IG-0869)
Department's top priorities. In the Federal sector,
the Department's Federal Energy Management
Program and Sustainability Performance Office            The Joint Actinide Shock
provide leadership for the implementation of key         Physics Experimental Research
energy initiatives, including the Energy
Independence and Security Act of 2007 and the            Facility at the Nevada National
EPAct of 2005. These broad policy initiatives            Security Site
contain significant provisions on reducing energy
consumption across the Federal enterprise.               NNSA’s Joint Actinide Shock Physics Experimental
                                                         Research (JASPER) facility plays an integral role in
Our review disclosed that the Department had not         the certification of the Nation's nuclear weapons
always effectively identified and implemented            stockpile by providing a method to generate and
energy-saving opportunities through facility             measure data pertaining to the properties of materials
evaluations and electricity metering. Three of the       at high shock pressures, temperatures and strain rates
five sites we reviewed (Brookhaven National              through utilization of a two-stage gas gun. In



                                                           APRIL 1, 2012 – SEPTEMBER 30, 2012           15
                                               SEMIANNUAL
                                               REPORT TO CONGRESS




February 2009, JASPER, located at the Nevada              permanent disposal in a geological repository.
National Security Site, discontinued operations and       The total cost to construct the WTP is currently
all JASPER experiments with Special Nuclear               estimated at $12.2 billion.
Materials ceased when an abnormal amount of
contamination was identified as a result of an alpha      The Department made progress in completing the
plutonium experiment.                                     waste feed delivery system to support operations of
                                                          the WTP. We found that the Department had
Our review disclosed that NNSA returned the               completed a number of waste feed delivery
JASPER facility to full operational status within         subprojects earlier than planned and was on track
the budgeted cost and schedule milestones and             to complete other critical path activities. We
mitigated the adverse impacts of JASPER's                 noted, however, that a number of challenges
shutdown by obtaining meaningful and                      remain for completing the construction and
complimentary data from other experiments to              operation of the waste feed delivery system.
support NNSA's milestones and the stockpile               Specifically, the Waste Acceptance Criteria (WAC)
stewardship program. However, we identified               that defines the specific WTP waste feed criteria
several issues that could affect future operation of      and associated controls had not yet been finalized.
the facility. Specifically, we identified problems        Uncertainties with tank waste mixing and
related to the risk of future contamination and re-       sampling could also impact the delivery of waste to
categorization of JASPER as a radiological facility       the WTP. The Department was aware of these
rather than its then current categorization as a          problems and told us that it had plans and
hazard category 3 nuclear facility.                       strategies in place to mitigate the associated risks.

No formal recommendations were made in this               The Department's actions to address risks with the
report; however, some suggested actions were              WAC and tank waste feed and characterization
provided to management. Steps and procedures              were considered proactive. No recommendations
were already initiated at the Site Offices to address     were made in this report; however, given the
the use of alpha phase plutonium targets.                 importance of treating, immobilizing and
(OAS-L-12-05)                                             disposing of hazardous and highly radioactive
                                                          waste, we made several suggestions to management
                                                          concerning the areas that should be closely
Tank Waste Feed Delivery                                  monitored. (OAS-L-12-09)
System Readiness at the
Hanford Site                                              Y-12 National Security
The Department's largest cleanup task involves            Complex's Waste
the treatment, immobilization and disposal of             Diversion Efforts
56 million gallons of hazardous and highly
radioactive waste at the Hanford Site, located in         The Y-12 Pollution Prevention Program (Program)
Southeastern Washington State. As part of this            plays a vital role in the Department’s overall waste
effort, the Department is constructing the WTP to         diversion efforts. During FY 2011, Y-12 generated
treat and immobilize the waste in preparation for         over 16,000 metric tons of non-hazardous solid




  16    OFFICE OF INSPECTOR GENERAL
                                              SEMIANNUAL
                                             REPORT TO CONGRESS




waste, including debris from construction and           Oak Ridge National
demolition projects.
                                                        Laboratory's (ORNL) Waste
We found that Y-12 had an established Program to        Diversion Efforts
divert materials from the landfill and contributed
to the Department's overall waste diversion efforts     The ORNL Program plays a vital role in the
through recycling and reusing materials.                Department's overall waste diversion efforts.
Specifically, FY 2011 reports prepared by Y-12          During FY 2011, ORNL generated over 9,500
management revealed that Y-12 had met the               metric tons of non-hazardous solid waste,
targets of Executive Order 13514 by diverting           including debris from construction and
58 percent of its construction and demolition           demolition projects.
debris and 50 percent of its non-hazardous solid
waste from the landfill. While the Program had          We found that ORNL had an established program
significant accomplishments, we also found that         that effectively diverted materials from landfills
Y-12 was facing challenges that may limit Program       and contributed to the Department's overall waste
expansion. In particular, Program officials told us     diversion effort, primarily through recycling and
that several complex-wide activities and initiatives    reusing materials. In our review of ORNL's
remain on hold due to budget reductions. In             FY 2011 data, we found that it recycled or reused
addition, we found that Y-12's scrap metal              over 5,100 of its 9,500 metric tons of solid waste,
recycling had been impacted by the Department's         and thus diverted it from landfill disposal.
July 2000 suspension of the release of scrap metal
from posted radiological areas. In FY 2011, for         While ORNL's performance in FY 2011 was
example, rather than recycling, Y-12 had disposed       notable, we did find several minor inconsistencies
of over 1,800 metric tons of policy-encumbered          between planned activities and actual performance.
scrap metal, according to Program officials.            For example, we found that ORNL had not
                                                        conducted pollution prevention opportunity
The Department recognized that disposal of scrap        assessments despite the fact that the program
metal as waste is contradictory to the Department’s     emphasized the importance of such assessments in
waste minimization and pollution prevention             helping to identify waste diversion opportunities.
efforts, and is currently working to address the        As an alternative, officials requested selected
matter. Despite the challenges it faces, Y-12's         divisions to develop, document, and implement
recent efforts to reduce, reuse, and recycle waste      plans to reduce or eliminate the environmental
materials resulted in a large percentage of materials   impacts of its activities. We noted that this
being diverted from the landfill. Accordingly, no       approach resulted in several divisions
formal recommendations were made in this report.        implementing additional waste diversion activities.
(OAS-L-12-08)                                           Because of ORNL’s progress in this area, no formal
                                                        recommendations were made in this report.
                                                        (OAS-L-12-06)




             Public reports are available in full text on our website at www.ig.energy.gov



                                                          APRIL 1, 2012 – SEPTEMBER 30, 2012         17
                                               SEMIANNUAL
                                               REPORT TO CONGRESS




Questioned, Unresolved, and                               NNSA concurred with the findings and
                                                          recommendations, and identified corrective actions
Potentially Unallowable Costs
                                                          that were responsive to our recommendations.
Incurred by Los Alamos                                    Management noted that NNSA had taken
National Laboratory (Los Alamos)                          significant actions to enhance Los Alamos' audit
during FYs 2008 and 2009                                  program, including documenting shortcomings
                                                          and withholding substantial incentive fees when
Since June 2006, Los Alamos National Security,            appropriate. Since the audit, Los Alamos has
LLC, has operated Los Alamos for NNSA. Los                submitted a revised audit strategy proposal that
Alamos is a multi-program laboratory with critical        includes positive steps toward resolving the issues
national security responsibilities, including             noted in the report. (OAS-L-12-04)
research and a limited production mission that
help to ensure the safety, security and reliability of
the Nation's nuclear weapons stockpile. Los               The Global Threat Reduction
Alamos incurred and claimed costs of $1.8 billion         Initiative's Molybdenum-99
in FY 2008 and $1.9 billion in FY 2009. As an
integrated management and operating contractor,           Program
Los Alamos' financial accounts are integrated with
                                                          Molybdenum-99 (Mo-99) is used in the production
those of the Department, and the results of
                                                          of technetium-99m, the most commonly used
financial transactions are reported monthly
                                                          medical radioisotope in the world. Because the
according to a uniform set of accounts. Los
                                                          U.S. lacks a domestic production capability, its
Alamos is required by its contract to account for
                                                          demand is met by other countries, whose processes
all funds advanced by the Department, safeguard
                                                          have recently proven to be unreliable. In addition,
assets in its care, and to claim only allowable costs.
                                                          the foreign producers utilize highly enriched
                                                          uranium (HEU), a practice contrary to the NNSA’s
We identified approximately $2 million in                 Nuclear Security Goal to minimize the use of HEU
questioned and unresolved costs claimed by Los            in civilian applications. As a part of the Global
Alamos during FYs 2008 and 2009. The majority             Threat Reduction Initiative's Mo-99 Program, in
of these costs concerned labor charges that Los           FY 2009 and 2010, NNSA entered into cooperative
Alamos' Internal Audit found either did not               agreements (CA) with four commercial entities to
benefit NNSA or did not comply with the                   accelerate the domestic production of Mo-99
contract's allowable cost provisions. We also             without the use of HEU.
identified more than $437 million in subcontract
costs that were unresolved pending audit or review        We found that progress had been made in
by Internal Audit. Further, we questioned whether         developing a reliable domestic production
Los Alamos' subcontract audit strategy provided           capability for Mo-99. For example, our review
sufficient coverage to ensure that only allowable         disclosed that as of January 2012, the CA partners
costs were paid with NNSA funds. Finally, we              had met established milestones. Although one of
noted other concerns that need to be addressed to         the partners has indefinitely suspended operations
ensure that only allowable costs are claimed by and       and a second is not expected to meet the 2014
reimbursed to Los Alamos.                                 deadline, NNSA officials told us that program
                                                          objectives can still be achieved by the remaining

             Public reports are available in full text on our website at www.ig.energy.gov


  18    OFFICE OF INSPECTOR GENERAL
                                              SEMIANNUAL
                                              REPORT TO CONGRESS




partners. Further, our tests did not reveal any          operations, and validating essential resource
material internal control weaknesses in selected         planning data. Accordingly, we determined that
areas of CA administration. Finally, while there         management attention was needed to address these
are significant challenges to establishing a reliable    challenges to reduce the risk that OST will be
domestic production capability for Mo-99, NNSA           unable to meet its future mission requirements.
is aware of the challenges and is considering how        NNSA management concurred with our
best to address them.                                    recommendations, proposed corrective actions and
                                                         stated that these items will be used to continue
No recommendations were made in this report;             improving NNSA's implementation of securely
however, we provided suggestions to management           and safely transporting nuclear weapons.
for ensuring compliance with the respective CAs          (OAS-M-12-05)
and developing viable mitigation strategies for the
challenges. (OAS-L-12-07)
                                                         Integrated Safety Management
                                                         at Sandia National Laboratories
Office of Secure Transportation
                                                         (Sandia)
Capabilities
                                                         In 1996, the Department established an Integrated
NNSA’s Office of Secure Transportation (OST) is          Safety Management (ISM) system intended to
responsible for safely and securely transporting         prevent or reduce occupational injuries, illnesses
nuclear weapons, weapon components and special           and accidents by providing safe and healthy
nuclear material for customers such as the               workplaces. As part of ISM, the Department
Department of Energy, Department of Defense              requires its facility contractors, such as Sandia, to
and the Nuclear Regulatory Commission. The               define work processes, enhance safety, and hold
demand for OST services is expected to increase          managers responsible for implementing ISM.
significantly over the next 7 years as a result of       Since 1997, and continuing into 2011, the
current Presidential initiatives and international       Department self-reported numerous deficiencies
nonproliferation efforts. OST forecasts show an          with Sandia's ISM implementation and execution,
increase in mission demand through 2019. Due             and that these problems often occurred at the line
to the importance of OST's mission to safely and         manager level in the contractor's chain of
securely transport nuclear weapons, we performed         command.
this audit to evaluate the challenges OST faces in
meeting future mission requirements.                     We found that Sandia had not fully addressed the
                                                         root causes of weaknesses in ISM implementation.
We found that, while OST has successfully met            Specifically, Sandia had not always ensured that
customer shipping requests in the past and expects       line managers performed effective self-assessments
to have capacity to meet future requirements, it         to identify ISM weaknesses within its
faces several significant challenges. These              organizations, and were not held accountable for
challenges include maintaining the reliability of        ensuring implementation of ISM requirements.
existing equipment, ensuring that future Federal         We noted that Sandia had not always provided
agent overtime levels are consistent with safe           effective management and oversight of line


             Public reports are available in full text on our website at www.ig.energy.gov



                                                           APRIL 1, 2012 – SEPTEMBER 30, 2012          19
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




managers' implementation of ISM. Finally, the           production schedule, however, shows production
Department's Sandia Site Office, the entity             increasing 59 percent during the same period.
charged with day-to-day management of the               The increase in production appears to be
contract, had not established performance goals         unsustainable given the projected funding. The
sufficient to monitor and/or evaluate Sandia's          goal of reducing the unit cost of W76 LEP
progress in implementing needed ISM corrective          production appeared to be one of the only paths to
measures.                                               keeping the Refurbishment Program on track
                                                        without adversely affecting other NNSA programs.
Management generally agreed with the findings           Although a senior NNSA official expressed
and recommendations in the report and proposed          confidence that NNSA would achieve the
and initiated corrective actions. In particular,        increased production rates within the out-year
management indicated that it will use the report’s      budget estimates, the Refurbishment Program
findings and recommendations to drive continued         officials could not provide plans detailing actions
improvement of the NNSA’s implementation of             necessary to achieve the needed cost reductions.
ISM. (DOE/IG-0866)                                      The Refurbishment Program officials disagreed
                                                        with our methodology for calculating unit cost;
                                                        however, they agreed that our analysis, including
Follow-up Audit of the NNSA's                           the risks going forward, were consistent with
                                                        NNSA's concerns about Refurbishment Program
W76 Nuclear Warhead
                                                        execution in future years.
Refurbishment Program
(Refurbishment Program)                                 Management agreed with our recommendations
                                                        that forward-looking plans should be developed
NNSA is refurbishing the aging W76 nuclear              and earned value management systems principles
warhead with the goal of extending the warhead          should be implemented to help ensure W76 LEP
life by 30 years. However, the W76 Life                 goals are met. (DOE/IG-0870)
Extension Program (LEP) has experienced
significant delays in startup and in achieving
production goals.
                                                        Follow-up Audit of the Stockpile
We found that NNSA may be unable to complete            Surveillance Program
the W76 LEP within established scope, cost and
schedule parameters, unless it adopts a more            The Department's NNSA’s stockpile surveillance
effective approach to reducing unit costs. This         program provides information on the status of the
concern is exacerbated by the fact that the             Nation's nuclear weapons stockpile. In 2007,
Refurbishment Program is faced with a relatively        NNSA initiated the Surveillance Transformation
flat budget over the next few years, even though its    Project (STP) to accelerate the surveillance
annual scope of work is projected to increase           program to look for changes in an aging stockpile.
significantly. For example, the Refurbishment           The transformation called for an increase in
Program's budget increases for both FY 2013 and         evaluations of nonnuclear components and
2014 are projected to be only 2.9 percent over          materials (CMEs) and a reduction in annual tests
FY 2011 levels. The Refurbishment Program's             of weapons systems.

             Public reports are available in full text on our website at www.ig.energy.gov



 20    OFFICE OF INSPECTOR GENERAL
                                               SEMIANNUAL
                                               REPORT TO CONGRESS




Our review disclosed that NNSA had taken                  test capabilities following a flood in 2006, and
actions to mitigate the STP transition challenges         incurred excessive security costs for SNM.
identified in the 2010 Surveillance Enterprise
Study (Study). The Study stated that there were           We initiated a special inquiry to review the
gaps in surveillance data that were further               allegations; however, our inquiry did not
exacerbated by the decline in laboratory tests.           substantiate the specific allegations outlined in the
Furthermore, evaluations of nonnuclear CMEs               complaint. Specifically, we found no evidence that
were not being achieved as rapidly as expected.           Livermore had not followed the Department's
To mitigate these challenges, NNSA achieved               Record of Decision for removing Security
increased surveillance data through expanded              Category I/II SNM as required by Public Law
laboratory tests and increased funding. In                109-364. In addition, we found no support for
addition, NNSA developed a comprehensive plan             allegations that Livermore developed unique
to complete baselining nonnuclear CMEs by the             environmental testing capabilities that were used
end of FY 2018.                                           to perform physical work on the W78 LEP when
                                                          only a paper study was required. We also did not
Although NNSA had mitigated STP transition                find that Livermore misappropriated government
challenges, we noted that it had not established an       funds relating to SNM activities, or had incurred
effective system of performance measurement over          excessive security costs.
the Enhanced Surveillance subprogram. After
discussing our performance measurement concerns           The allegations were not substantiated; therefore,
with NNSA officials, the measure was replaced in          no recommendations were made in this report.
FY 2012 with one that more accurately reflects            (OAS-L-12-11)
performance. Therefore, we suggested that
management closely monitor progress made in
meeting CME requirements. (OAS-L-12-10)                   Alleged Storage Capacity
                                                          Concerns at the Strategic
                                                          Petroleum Reserve
Inquiry into the De-Inventory
of Special Nuclear Material at                            The Department's Strategic Petroleum Reserve
                                                          (SPR) has the largest stockpile of government-
Lawrence Livermore National                               owned emergency crude oil in the world. The
Laboratory (Livermore)                                    SPR crude oil inventory is stored in underground
                                                          salt caverns that have an authorized storage
In January 2012, the OIG received allegations that        capacity of approximately 727 million barrels.
Livermore had failed to follow the Department's           These caverns are susceptible to "creep," a
Record of Decision requirements for removing              geological force that causes caverns to close over
special nuclear material (SNM) and as such had            time, decreasing available cavern space to store oil.
violated Public Law 109-364, when it attempted to         A process known as "leaching" is used to create
maintain SNM beyond 2012 by establishing unique           cavern space by injecting fresh water at high
testing capabilities that were used to perform physical   pressure to dissolve salt. SPR consists of 62
work using SNM on the W78 Life Extension                  caverns located at four sites in Louisiana and
Program (LEP) that required only a "paper study,"         Texas, and is operated for the Department by DM
misappropriated government funds to re-establish          Petroleum Operations Company (DM).




                                                            APRIL 1, 2012 – SEPTEMBER 30, 2012               21
                                              SEMIANNUAL
                                              REPORT TO CONGRESS




The OIG received a complaint alleging that the           while on travel. We initiated an inspection to
Department and DM intentionally overfilled SPR,          examine the facts and circumstances surrounding
Department and DM officials were awarded big             the allegations.
bonuses to fill SPR to the authorized storage
capacity, and filling SPR to the authorized storage      We were unable to substantiate the allegations that
capacity played a role in a July 2010 fatality at one    the actions taken by ED management were
of the SPR sites. We initiated the inspection to         inappropriate. While we did determine that a
examine the facts and circumstances surrounding          senior official approved the reconfiguration of ED
the allegations.                                         office spaces, the construction project did not
                                                         appear to be unreasonable or excessively costly.
We did not substantiate the allegations. We              We identified procedural issues that, if not
noted that the Department is in the process of           addressed, could increase the risk that projects
addressing technical concerns that could impact          might begin and be completed even though
the ability to sustain authorized storage levels,        funding had not actually been authorized. Based
but we did not find that the SPR had been                on the results of our review, we made suggestions
overfilled. Based on the results of our review,          to management to help ensure that similar
we did not make any recommendations to                   authorization and funding issues do not recur.
management. (INS-L-12-06)                                (INS-L-12-07)


Alleged Waste and Abuse in                               Alleged Ethical and
the Office of Economic Impact                            Procurement Concerns at the
and Diversity                                            Office of Nuclear Energy (NE)

The Department's Office of Economic Impact and           Approximately 80 percent of the Department's
Diversity (ED) develops and executes Department-         workforce is comprised of contractor personnel
wide policies affecting equal employment                 who provide services to assist with managing
opportunities, small and disadvantaged businesses,       projects and programs. Generally, Federal
minority educational institutions, and historically      employees are prohibited from becoming involved
under-represented communities. ED's mission is           in contractor employee personnel matters such as
to develop and implement initiatives designed to         hiring and terminating personnel, supervising
ensure minorities are afforded an opportunity to         contractor employees and assigning tasks to
fully participate in Department programs.                contractor employees that, by Federal regulation,
                                                         can only be performed by Federal employees.
The OIG received a complaint alleging that ED
had engaged in wasteful spending, including the          The OIG received a complaint alleging that a
approval of a $40,000 construction project to            Department management official within NE
expand a senior official's office space even though      may have violated Federal regulations and
a large vacant office existed, the purchase of Liquid    procurement guidelines regarding preferential
Crystal Display Televisions and iPads for select ED      treatment of a contractor employee, to include
officials to reflect a higher status, a $50,000 pool     involvement in contractor hiring decisions relating
of "fun money" to "shower someone with a good            to that employee.
idea," and the use of high-cost limousine services



  22    OFFICE OF INSPECTOR GENERAL
                                            SEMIANNUAL
                                            REPORT TO CONGRESS




We did not substantiate the allegation that a NE       The OIG received a complaint alleging
manager violated Federal regulations and               inappropriate actions taken by senior PI officials
procurement guidelines involving contractor hiring     concerning the Rhodium contract and
decisions. While we found that the subject of the      inappropriate personnel practices related to hiring
allegation had taken certain actions on behalf of a    and promoting of Federal employees within PI.
particular contract individual, it did not appear      We found no evidence to support the allegations
that the NE manager violated Federal regulations       regarding inappropriate procurement and hiring
or procurement guidelines based on information         actions taken by senior PI officials and no
gathered during the course of our inspection and       recommendations were made in this report.
after consultation with the Department's Office of     (INS-L-12-04)
the General Counsel (GC). We did note that the
actions taken by the NE manager may have caused
others to perceive that the manager acted              Extended Assignments at
improperly.
                                                       Princeton Plasma Physics
No formal recommendations were made in this            Laboratory (Princeton
report; however, we suggested that steps be taken      Laboratory)
to ensure strict compliance with recently published
guidance on Federal officials' involvement in          Princeton University operates the Princeton
contractor hiring decisions. (INS-L-12-05)             Laboratory under a contract with the
                                                       Department's Office of Science. Princeton works
                                                       with partners around the world to develop fusion
Alleged Procurement and                                as an energy source. The Princeton Laboratory's
Hiring Practice Irregularities                         annual operating costs are about $80 million, all of
                                                       which is reimbursed by the Department.
within the Office of Policy and
International Affairs (PI)                             On May 8, 2012, we issued a separate contract
                                                       audit report on Audit Coverage of Cost Allowability
PI has primary responsibility for the Department's     for Princeton Plasma Physics Laboratory during
international energy activities including              Fiscal Years 2009-2010 under Department Contract
international emergency management, national           Numbers DE-AC02-76CH03073 and DE-AC02-
security and international cooperation in science      09CH11466 (OAS-V-12-06, May 2012). During
and technology. To accomplish its mission, PI has      the course of our contract audit, we identified
contracts with various subject matter experts such     specific costs that we considered to be
as Rhodium Group, LLC, (Rhodium). Rhodium              unreasonable and related internal control
combines policy experience, quantitative economic      weaknesses that led to the questionable costs.
tools and research to analyze global trends. The       Specifically, the Department reimbursed Princeton
Rhodium contract, valued at approximately              $1.04 million for lodging subsidies incurred by
$992,000, was executed in September 2010 as a          two employees who were on extended assignments
2-year contract.                                       — 14 years in one case, and 9 years in the other.
                                                       While existing Princeton Laboratory policy


            Public reports are available in full text on our website at www.ig.energy.gov



                                                         APRIL 1, 2012 – SEPTEMBER 30, 2012          23
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




permitted temporary assignments, the duration of        activities and operation of the Savannah River
these particular assignments appeared to be             National Laboratory. The Savannah River
excessive and inconsistent with Department              Operations Office provides Department oversight
policies that we used for benchmarking purposes.        for all of EM operations for the site.
Consequently, we considered these costs to be
unreasonable, and as a result, we questioned the        We found that SRNS had not always met its
cost allowability.                                      contractual obligations when acquiring services
                                                        from its affiliates. Specifically, SRNS had not
In our separate contract audit report, we provided      obtained required Department approval for the
recommendations to the Site Office, which agreed        two noncompetitive contracts it awarded to Fluor
to take appropriate corrective actions regarding our    and Newport News during 2009. We also found
recommendations. The frequency of incidents in          that SRNS had not demonstrated, in most cases,
this area suggests that the Department should           that the affiliates were the only sources capable of
address these matters on a corporate basis.             providing the expertise necessary to perform the
Accordingly, to strengthen controls over contractor     needed services, a pre-requisite for noncompetitive
extended assignments, we recommended that the           awards to affiliate companies. Additionally, we
Office of Management (OM) develop and issue             found that SRNS had not performed cost analyses
guidance to assist facility contractors in their        to ensure the reasonableness of the cost of affiliate
development of extended assignment policies.            personnel services, as required.
OM concurred with our recommendation and
stated that it developed and issued guidance to         During the audit, the Savannah River Operations
address contractor extended assignments that are        Office initiated a review to determine the
not covered by other Departmental guidance. In          reasonableness of the cost of affiliate personnel
addition, we were informed that Princeton has           services that were acquired. To further address the
agreed to reimburse the Department $1 million.          issues identified in this report, we made a number
Finally, Department officials informed us that they     of recommendations. Management partially
took action to ensure that payments to the four         concurred with the report recommendations,
assignees were discontinued. (DOE/IG-0864)              acknowledged the risks associated with improper
                                                        use of affiliate personnel services, and cited certain
                                                        planned, initiated or completed actions.
Use of Noncompetitive                                   (DOE/IG-0862)
Procurements to Obtain
Services at the Savannah
                                                        Alleged Health and Wellness
River Site
                                                        Benefit Irregularities by a
In August 2008, Savannah River Nuclear                  Department Contractor
Solutions, LLC, (SRNS) assumed management
and operating responsibility for the Department's       The National Energy Technology Laboratory
Savannah River Site located near Aiken, South           (NETL), owned and operated by the Department,
Carolina. Under its contract, SRNS is responsible       supports the Department’s mission to advance the
for environmental cleanup, national security            national, economic and energy security of the

             Public reports are available in full text on our website at www.ig.energy.gov


 24    OFFICE OF INSPECTOR GENERAL
                                              SEMIANNUAL
                                              REPORT TO CONGRESS




United States. NETL has contracted with Ahtna            wide range of benefits to employees, including
Facility Services, Inc. (Ahtna) to provide site          those experiencing occupational disabilities. The
security services for NETL's locations in                contractors also have other disability plans, such as
Morgantown, West Virginia; Pittsburgh,                   sick leave or salary continuation programs, that
Pennsylvania; and Albany, Oregon.                        provide benefits for non-occupational disabilities
                                                         and generally supplement workers' compensation.
The OIG received allegations concerning
irregularities with health and wellness fringe           We found that NNSA had not ensured that its
benefits (fringe benefits) and retaliatory practices     contractor sites always managed disability plans
by Ahtna. Specifically, it was alleged that Ahtna        effectively and reduced costs by implementing
did not provide a specific group of employees at         return-to-work programs. For example,
the Albany site an option to receive cash in lieu of     Livermore, Sandia, and Y-12 provided
fringe benefits, established individual 401(k)           disincentives to employees to return to work by
accounts without employee consent and withheld           supplementing workers' compensation with
information concerning employee fringe benefits          payments that gave employees more net income
contributions of approximately $10,000, and              when they were on disability payments than when
terminated an Ahtna employee for complaining             they were working. The issues identified in our
about issues related to fringe benefits                  report occurred because NNSA, its site offices, and
administration.                                          contractor officials did not exercise adequate
                                                         oversight of, or provide resources necessary to
We initiated an inspection to review the facts and       improve, contractor disability plans. By increasing
circumstances surrounding these allegations.             its oversight of contractor disability programs and
While we generally substantiated the first and           implementing its consultant's recommendations,
second allegations, we determined that in most           NNSA could save more than $3.3 million
instances Ahtna's actions were not contrary to           annually.
contractual and regulatory requirements.
Regarding the third allegation, the OIG’s Hotline        Management generally agreed with the findings
referred the employee to the Department's local          and recommendations in the report and initiated
Employee Concerns Program. Based on the results          corrective actions. Specifically, management
of our review, no recommendations were made in           indicated that Site Office officials discussed the
this report. (INS-L-12-03)                               issues with the contractors and planned actions to
                                                         address each of the recommendations in order to
                                                         provide well managed, cost effective workers'
NNSA Contractors' Disability                             compensation and disability programs.
                                                         (DOE/IG-0867)
Compensation and Return-to-
Work Programs
                                                         Southwestern Federal Power
NNSA is responsible for the Nation's nuclear
weapons programs and relies on contractors to            System's FY 2010 Financial
manage and operate the seven sites that form its         Statement Audit
nuclear security enterprise, including three
national laboratories. Under state workers'              The OIG contracted with the independent public
compensation laws, these contractors provide a           accounting firm of KPMG, LLP, (KPMG) to



                                                           APRIL 1, 2012 – SEPTEMBER 30, 2012           25
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




audit the combined balance sheets of the
Southwestern Federal Power System (SWFPS) as
of September 30, 2010 and 2009, as well as the
related combined statements of revenues and
expenses, changes in net Federal investment and
cash flows for the years then ended.

KPMG concluded that the combined financial
statements present fairly, in all material respects,
the respective financial position of SWFPS as of
September 30, 2010 and 2009, and the results of
its operations and its cash flow for the years then
ended, in conformity with U.S. generally accepted
accounting principles. KPMG also considered
SWFPS's internal controls over financial reporting
and tested for compliance with certain provisions
of laws, regulations, contracts and grant
agreements that could have a direct and material
effect on the determination of financial statement
amounts. The audit identified four internal
control deficiencies over accounting for utility
plant and five internal control deficiencies over
Accounting Policies and Procedures, each of which
were considered to be significant. When
combined together, these conditions were
considered a material weakness.

In response to the findings, management agreed
with our recommendations and agreed to take
necessary corrective action. (OAS-FS-12-10)




 26    OFFICE OF INSPECTOR GENERAL
                                              SEMIANNUAL
                                              REPORT TO CONGRESS




                       Investigative Outcomes

  Actions in Per Diem                                      Actions in Time Card Fraud
  Investigations                                           Investigations

The OIG conducted a number of investigations             Four former Department contractor employees at
involving the improper payment of per diem by            the Hanford Site pled guilty in the U.S. District
SRNS. Many of these payments involved                    Court for the Eastern District of Washington to
Recovery Act funds. During this reporting period,        conspiracy to defraud the Government. The
four former subcontractor employees were                 investigation determined that within a 5-year
indicted, one former subcontractor employee was          period, several contractor employees routinely
convicted, and two former subcontractor                  falsified timecards and received pay for hours they
employees were terminated from employment for            did not work. The amount received by each
receiving per diem payments for which they were          employee ranged from $50,000 to $166,000.
not entitled. In addition, two subcontractor             Sentencing is pending in each case.
employees and one company were debarred from
doing business with the U.S. Government for 3
years. To date, over $2.2 million in fines,                Actions In Defective Body
restitution, and civil settlement agreements have
                                                           Armor Investigation
been paid by contractors and their employees.
                                                         As previously reported, a joint investigation was
                                                         conducted into allegations that a body armor
  Actions in Purchase Card                               manufacturer knowingly participated in the
  Fraud Investigations                                   manufacturing and sale of defective body armor.
                                                         The manufacturers sold this defective body armor
The OIG conducted a number of investigations             to the Department as well as to other Federal,
                                                         State, local, and Tribal law enforcement agencies.
involving the improper use of Government
                                                         Several individual companies that provided
purchase cards by contractor employees at the
                                                         component parts of the armor or the armor itself
Department’s Hanford Site. As previously
                                                         previously agreed to pay a total of $60 million to
reported, several former contractor employees were       resolve allegations that they violated the False
convicted, sentenced, and ordered to pay over            Claims Act. During this reporting period, two
$1 million in restitution. Additionally, three           former principals of a name-brand retail
companies previously agreed to pay over $6 million       corporation involved in the sale of the defective
in civil settlements. During this reporting period,      body armor agreed to pay a $100,000 settlement
two former contractor employees and one company          to the U.S. Government. Also during this
entered into civil settlement agreements to pay          reporting period, the U.S. Bankruptcy Court for
$33,815 in restitutions to resolve alleged violations    the District of Delaware approved an interim
of the False Claims and Anti-Kickback Acts.              distribution order for a corporation involved in the

             Public reports are available in full text on our website at www.ig.energy.gov



                                                           APRIL 1, 2012 – SEPTEMBER 30, 2012         27
                                            SEMIANNUAL
                                            REPORT TO CONGRESS




manufacture and sale of defective Zylon body           while employed as a project manager, received
armor. The order allows an interim distribution of     kickbacks from an employee of another Y-12
$3,564,884 to the Department of Justice (DOJ).         subcontractor company. The investigation also
This remains an ongoing investigation with the         determined that over a 2-year period, the former
DOJ Civil Division and several other Federal law       subcontractor employee billed time and received
enforcement agencies.                                  payment for hours he had not worked.


Sentencing in Grant Fraud                              Settlement Agreement with
Investigation                                          Former Department Prime
A former Chief Financial Officer (CFO) of a            Contractor
Department grantee was sentenced to 36 months
incarceration and 3 years supervised probation for     DOJ settled a Qui Tam lawsuit by entering into a
wire fraud and money laundering in the U.S.            $230,000 agreement with a former Managing and
District Court for the Eastern District of             Operating contractor at the Department’s Paducah
Tennessee. The former CFO was also ordered to          Gaseous Diffusion Plant located in Kentucky.
pay restitution to the Department grantee in the       The Qui Tam suit was filed by a subcontractor
amount of $403,161 and a special assessment fee.       employee. The investigation determined that the
The OIG determined the former CFO utilized             former contractor overbilled the Department on a
several schemes, including online auction fraud,       waste operations contract from 1996 to 2002.
forged checks, and a fraudulently obtained
business license to embezzle funds from the
Department grantee over a 3-year period.               Former Department Employee’s
                                                       Spouse Pled Guilty

Former Subcontractor Sentenced                         The spouse of a former member of the
in Kickback Investigation                              Department's Senior Executive Service pled guilty
                                                       in U.S. District Court in Greenbelt, Maryland,
A former subcontractor employee at Y-12 was            to one misdemeanor count of aiding and abetting
sentenced in the U.S. District Court for the           in a matter in which they both had a financial
Eastern District of Tennessee to 6 months home         interest. As part of the plea agreement, the
confinement and 3 years probation, and ordered to      spouse agreed to pay $104,000 in restitution.
pay restitution of $294,976. Also during this          The investigation revealed that the former
reporting period, the former subcontractor             employee arranged for the spouse to receive
employee was debarred from performing work for         over $1.2 million in consulting fees and
the U.S. Government for a period of 3 years. As        subcontract payments on a project in which
previously reported, the former subcontractor          his office was responsible.
employee pled guilty to a one count violation of
the Anti-Kickback Act. The investigation
determined the former subcontractor employee,

            Public reports are available in full text on our website at www.ig.energy.gov


 28    OFFICE OF INSPECTOR GENERAL
                                              SEMIANNUAL
                                              REPORT TO CONGRESS




Contractor Enters into Civil                             Former Department Contractor
Settlement Agreement                                     Employee Sentenced for Theft of
                                                         Federal Funds
A NETL contractor entered into a civil settlement
agreement with the U.S. Attorney's Office for the        In the U. S. District Court of Idaho, a former
District of Connecticut. The investigation               director of a Bonneville Power Administration
determined that the contractor submitted                 (Bonneville) grantee was sentenced to 10 months
fraudulent billing invoices to NETL for work             incarceration and 3 years of supervised release,
performed pursuant to a $1.8 million cooperative         and was ordered to pay restitution of $36,485.
agreement. As a result of the settlement, the            As previously reported, the former director was
contractor agreed to pay $50,000 to Treasury and         charged with one count of theft of Federal funds,
to create and implement government contractor            which came from a contract worth approximately
compliance and ethics training programs.                 $400,000. The investigation determined that
                                                         between September 2008 and July 2009, while
                                                         employed by the Bonneville grantee, the former
Former Department Contractor                             director embezzled the funds for personal use.
Employee Sentenced for
Wire Fraud
                                                         Actions in Copper Theft
A former Department contractor employee, who             Investigation
was a buyer for the Nevada Site Office (NSO), was
sentenced to 5 months incarceration and 1-year           As previously reported, an individual pled
probation, and ordered to pay $42,127 in                 guilty in the Weld County, Colorado, District
restitution in the Northern District Court of            Court to burglary and was sentenced to 3 years
Indiana. The former contractor employee and              incarceration. During this reporting period, the
another individual, not affiliated with the              individual was ordered to pay $30,011 in
Department, previously pled guilty to five counts        restitution to the Department. Additionally, a
of wire fraud. The investigation determined that         second individual, with no Department affiliation,
both individuals engaged in collusive procurement        pled guilty to burglary and was sentenced to
activities that resulted in kickbacks and                120 days incarceration and 2 years probation, and
embezzlement of Department funds. Sentencing             ordered to pay joint restitution. The investigation
is pending for the unaffiliated individual. This is a    determined that both individuals stole copper
joint investigation with the Federal Bureau of           from Western Area Power Administration’s
Investigation.                                           (WAPA) Ault substation. This is a joint
                                                         investigation with the Weld County
                                                         Sheriff ’s Office.




             Public reports are available in full text on our website at www.ig.energy.gov



                                                           APRIL 1, 2012 – SEPTEMBER 30, 2012         29
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




Guilty Plea in Weatherization                           Former Bonneville Employee
Fraud Investigation                                     Pled Guilty to Theft of
                                                        Copper Cable
The U.S. District Court for Rhode Island accepted
a plea agreement from a former weatherization           A former Bonneville employee pled guilty to one
energy auditor at a community action agency for         count of felony theft in the State of Washington
one count of bribery and one count of false             Superior Court for the theft of copper cable. The
statements. The investigation determined that           employee was sentenced to one day incarceration,
between 2006 and 2007, the former energy                and ordered to pay $10,232 in restitution to
auditor received over $30,000 in kickbacks from a       Bonneville and an $800 fine. The investigation
weatherization contractor while working at a            determined that the former Bonneville employee
community action agency, and then made false            stole copper cable worth more than $20,000 from
statements regarding his involvement in the             his duty location. The employee previously
kickback scheme during the OIG investigation.           resigned on December 17, 2011, prior to a
This is a joint investigation with multiple             proposed termination.
Government agencies.

                                                        Actions in Theft Investigation
Former Department Contractor
Employee Pled Guilty to Theft                           An Investigative Report to Management (IRM)
                                                        with one recommendation for corrective action
A former ORNL contractor employee pled guilty           was issued to a NETL Director. The investigation
in the State of Tennessee’s 6th Judicial District to    determined a former NETL contractor employee
theft of Government property and was sentenced          stole over $5,000 in supplies from NETL. Also
to 3 years probation. The employee was later            during this reporting period, the former contractor
debarred from doing business with the Federal           employee was sentenced in the Circuit Court of
Government for a period of 3 years. As previously       West Virginia to 2 years probation, ordered to
reported, the investigation determined that the         perform 100 hours of community service, and
former contractor employee used his Government-         required to pay a fine. Additionally, the former
issued travel card to obtain $28,000 in cash            employee has been suspended from government
advances, gasoline and pre-paid credit cards for        contracting pending debarment action. This was a
personal use.                                           joint investigation with the Morgantown Police
                                                        Department.




             Public reports are available in full text on our website at www.ig.energy.gov


 30    OFFICE OF INSPECTOR GENERAL
                                            SEMIANNUAL
                                            REPORT TO CONGRESS




Former Pacific Northwest                                      sensitive information on the Internet in
                                                              violation of Department policy. The
National Laboratory (PNNL)
                                                              employee was immediately removed from
Employee Enters into Civil                                    the Information Assurance Response Center
Settlement                                                    (IARC) facility and placed on administrative
                                                              leave pending the outcome of an IARC
The U.S. Attorney’s Office for the Eastern District           internal investigation. The employee
of Washington entered into a civil settlement                 subsequently resigned. In response to
agreement with a former contractor employee of                the IRM, NNSA implemented corrective
PNNL. The investigation determined that the                   action to improve internal control
former employee, while employed at PNNL,                      deficiencies. NNSA has requested regular
submitted fabricated documentation to improperly              assessments by DOE Office of Health
receive tuition assistance and reimbursement for              Safety and Security of the IARC to
college courses the former employee did not                   determine if events are being properly
complete. As a result of the settlement agreement,            reported and if the staff is adhering to
the former employee agreed to reimburse the                   Department policies, national standards,
Government.                                                   accepted practices and procedures.

                                                          ■   NNSA’s Chief Information Officer agreed
Responses to Investigative                                    to ensure compliance with Department
                                                              policies and procedures concerning the
Reports to Management                                         protection of Personally Identifiable
                                                              Information (PII), and to appoint a Privacy
In response to an OIG IRM:                                    Act Official at the Nevada Site Office
                                                              (NSO). The investigation determined that
   ■   The Department’s Oak Ridge Office (ORO)                PII was lost when an NSO encrypted laptop
       determined that $169,952 in costs                      computer and an unencrypted external hard
       associated with an EECBG were                          drive were stolen from an NSO employee’s
       disallowable. The ORO advised that it will             car. The investigation found violations of
       request the return of the funds from the               Department policy regarding proper
       recipient, Sevier County, Tennessee. The               protection of PII.
       OIG determined that Sevier County hired
       two consultants to assist in awarding a
       project under the grant. The project was
       subsequently awarded to a company
       employing these same consultants.

   ■   The OIG issued a report regarding an
       unauthorized disclosure of information at
       an NNSA site in Las Vegas, Nevada. The
       investigation determined that a former
       NNSA contractor employee publicly posted


             Public reports are available in full text on our website at www.ig.energy.gov



                                                         APRIL 1, 2012 – SEPTEMBER 30, 2012        31
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




                       Positive Outcomes

Highlights Based on Office of                                  Federal Bureau of Investigation, and Internal
                                                               Revenue Service, Criminal Investigation.
Inspector General Work
                                                           ■   The Department recovered $652,104 in
During this reporting period, the Department                   interest earned on grant funds advanced to
took positive actions as a result of OIG work                  the University and the University Tennessee
conducted during the current or previous                       Research Foundation from the Recovery
periods. Consistent with our findings and                      Act. Contrary to Federal requirements, the
recommendations:                                               Tennessee SEP had advanced funds to both
                                                               of these entities in excess of what was
   ■   A two-count Criminal Information was filed              immediately needed to pay for actual
       in U.S. District Court for the Eastern                  expenses. These two entities were in
       District of Virginia against a Department               possession of over $18 million in unspent
       contractor for violations of the Foreign                SEP grant funds.
       Corrupt Practices Act (FCPA). The FCPA
       was enacted in 1977 for the purpose of              ■   The Missouri Department of Natural
       making it unlawful for certain classes of               Resources created a new system to track the
       persons and entities to make payments to                findings noted in its monitoring visits of
       foreign government officials to assist in               weatherized homes, which will allow the
       obtaining or retaining business. The                    State to identify and recommend corrective
       investigation determined that Department                actions for systemic problems regarding
       contractor employees paid bribes to officials           contractors, inspectors and assessors who
       at an overseas nuclear power plant to secure            repeatedly under-perform. Further,
       contracts to perform services at the plant.             Missouri decreased the time between when
       Violations committed by the contractor                  a home is completed and a monitoring visit
       spanned several foreign countries and                   is conducted, and began conducting real-
       involved the Department's International                 time audits with sub-recipients.
       Nuclear Safety Program (INSP). The goal             ■   NNSA and Y-12 took steps to ensure that
       of the INSP is to perform safety upgrades to            sufficient quantities of highly enriched
       nuclear power plants in the former Soviet               uranium metal were available to meet
       Union. The recent court filing included a               mission needs and safeguard against
       Deferred Prosecution Agreement in which                 production disruptions. Y-12 controlled its
       the contractor admitted to paying bribes to             purified metal production, and during
       foreign officials in violation of the FCPA.             FY 2012, Y-12 produced more purified metal
       As part of the agreement, the contractor will           that met specification than any other year
       pay $8.82 million and enter into an                     since the start-up of the process in 2006.
       Administrative Compliance Agreement to              ■   NNSA and Y-12 took action to recover
       resolve the charges. This is a joint                    unallowable costs, and through mediation, a
       investigation between the Department OIG,               settlement was reached with a subcontractor




 32     OFFICE OF INSPECTOR GENERAL
                                          SEMIANNUAL
                                          REPORT TO CONGRESS




    and approved by NNSA. Specific                      ■   Los Alamos audited and resolved
    information on the amounts contributed by               $4,881,051 in questioned costs that
    or awarded to each party was not made                   had not previously been audited in
    available; however, concurrence was reached             accordance with the terms and conditions
    regarding payment through the settlement.               of its contract with the Department.
■   The Department and ORNL resolved                        In addition, the Laboratory repaid the
    questioned costs. The Contracting Officer               Department $51,775 in costs claimed
    made a determination to disallow                        during FYs 2008 and 2009 that were
    unresolved questioned costs and UT-Battelle             unallowable under Federal regulation.
    will ensure the amount deemed unallowable           ■   The Office of Intelligence and
    is recovered.                                           Counterintelligence (IN) promptly deleted
■   The Department's Office of Electricity                  all retrievable SPOT Reports containing
    Delivery and Energy Reliability (EDER)                  information on U.S. persons that were no
    reviewed the existing Smart Grid                        longer needed, including electronic media
    Investment Grant Program Management                     and paper files. IN also ensured that staff
    Plan (PMP) and incorporated changes to                  were provided additional guidance or policy
    reflect and strengthen current monitoring               clarification regarding restrictions on the use
    practices and procedures. In addition,                  or retention of information on U.S. persons
    EDER indicated that it would continue to                without a foreign nexus.
    update the PMP as new practices and                 ■   The LPO indexed, reviewed, and captured
    procedures are developed and adopted.                   the critical documents associated with its
■   Regarding its Identity Credential and Access            loan guarantees into a newly developed
    Management (ICAM) program, the                          document management system.
    Department established an integrated                ■   OM developed and issued new guidance
    project team (IPT) composed of Federal                  that sets firm limits on reimbursements and
    management representatives from its                     other subsidies for contractor domestic
    program and staff offices for the purposes of           extended personnel assignments that were
    establishing Department-wide ICAM                       not covered by other Department guidance.
    policies, standards and guidelines.                     Science also ensured that excessive lodging
    Additionally, the ICAM IPT unanimously                  subsidies were discontinued and initiated a
    approved the DOE ICAM Framework that                    review of contractor policies in this area.
    defined the Departmental approach to                    Finally, Princeton University agreed to
    implementing ICAM.                                      reimburse the Department $1 million
■   The NNSA Enhanced Surveillance                          for excessive reimbursements made to
    subprogram agreed with our concern that                 two employees at the Princeton Laboratory.
    tracking cumulative funding spent in the            ■   WAPA ensured necessary project safeguards
    FY 2011 Annual Performance Plan was not                 were in place prior to allowing resumption
    the best method to measure performance.                 of construction on a 214-mile transmission
    As a result, in FY 2012, NNSA deleted the               line between Great Falls, Montana, and
    performance measure and replaced it with a              Lethbridge, Alberta, Canada. The project
    new measure that tracks progress toward                 was the first financed using borrowing
    annual deliverables on a quarterly basis.               authority provided to WAPA under



                                                       APRIL 1, 2012 – SEPTEMBER 30, 2012           33
                                              SEMIANNUAL
                                              REPORT TO CONGRESS




       the Recovery Act. Additionally, WAPA                 2) Subcommittee on Energy and Environment,
       resolved issues regarding the long-term                 House Committee on Science, Space, and
       funding of Transmission Infrastructure                  Technology, on July 26, 2012. The hearing
       Program activities.                                     was entitled, "Review of DOE Vehicle
   ■   The EECBG Program developed formal                      Technologies Program Management and
       criteria for extending the period of                    Activities: Assuring Appropriate and
       performance for the grant recipients, and               Effective Use of Taxpayer Funding;"
       requires justification for the extension and a       3) Subcommittee on Oversight and
       detailed plan for spending the remaining                Investigations, House Committee on
       funds within the renegotiated timeframe.                Energy and Commerce, on September 12,
       Further, the EECBG Program developed                    2012. The hearing was entitled, "DOE's
       criteria for determining when awards should             Nuclear Weapons Complex: Challenges to
       be terminated and unspent balances                      Safety, Security, and Taxpayer Stewardship;"
       remitted to Treasury.                                   and,
   ■   The NYSERDA re-programmed over                       4) Strategic Forces Subcommittee,
       $1.2 million of SEP Recovery Act project                House Armed Services Committee, on
       funds to prevent a violation of grant terms.            September 13, 2012. The classified
       These funds were transferred to another                 part of the hearing, at which the
       pressing project priority, and NYSERDA                  Inspector General testified, was entitled,
       took action to recover $12,825 in                       "Y-12 Intrusion: Investigation, Response,
       questioned travel costs.                                and Accountability."
   ■   At the Department’s $12.2 billion WTP, the
       Department confirmed our concerns about
       certain incomplete engineering records for        Legislative and
       the black cell vessels when recently a vessel     Regulatory Reviews
       was shipped to the WTP with the same
       problems. Additionally, EM and GC have            The Inspector General Act of 1978, as amended,
       agreed to look into a questioned fee of           requires the OIG to review and comment upon
       $15 million paid to the contractor                legislation and regulations relating to Department
       questioned during our audit.                      programs and to make recommendations
                                                         concerning the impact of such legislation or
                                                         regulations on departmental economy and
Congressional Responses                                  efficiency. The OIG coordinated and reviewed
                                                         27 items during this reporting period.
During this reporting period, the OIG testified at
four congressional hearings before the following:
   1) Subcommittee on Oversight and
                                                         Hotline System
      Investigations, House Committee on
      Energy and Commerce, on April 18, 2012.
                                                         The OIG operates a Hotline System to facilitate
      The hearing was entitled, "Budget and
                                                         the reporting of allegations involving the
      Spending Concerns at DOE;"
                                                         programs and activities under the auspices of the
                                                         Department. During this reporting period, the



 34     OFFICE OF INSPECTOR GENERAL
                                                SEMIANNUAL
                                               REPORT TO CONGRESS




Hotline received 2,654 contacts (calls, letters,                 performance evaluations at the Lawrence
e-mails, walk-ins, and Qui Tams); 263 contacts                   Berkeley National Laboratory (Berkeley).
were processed for further review and adjudication;              As a result of the referral, 2011 performance
and 2,380 contacts were immediately resolved,                    evaluations for Berkeley Directorate, as
redirected, or required no further action. The                   well as Berkeley’s Nuclear Science and
OIG Hotline System can be reached by calling                     Engineering Divisions, were completed.
1-800-541-1625 or (202)-586-4073.                                Additionally, the Berkeley’s Internal Audit
                                                                 Director will include an audit of
                                                                 performance evaluations in the FY 2013
Management Referral System                                       Audit Plan. The referral followed allegations
                                                                 that Berkeley management officials had
The OIG referred 109 complaints to Department                    refused to sign employee performance
management and other government agencies during                  evaluations and failed to distribute them
the reporting period and specifically requested                  to employees thereby undermining
Department management to respond concerning                      opportunities for advancement or
the actions taken on 44 of these complaints.                     opportunities to address poor performance.
Otherwise, Department management and others                  ■   In response to an OIG referral, Bonneville
were asked to reply only if wrongdoing or                        confirmed allegations that a Field Inspector
misconduct was confirmed or indicators of fraud                  (Inspector) kept a personally owned pistol
involving Department programs, contractors, or                   in the Inspector’s assigned Government
personnel were identified in response to an OIG                  vehicle. The Inspector was suspended
referral. The following referrals for which responses            without pay for 2 weeks for violating
were received during this reporting period are                   Bonneville policy. The Inspector and other
examples that demonstrate management’s use of                    Bonneville employees were briefed on
OIG provided information to stimulate positive                   Bonneville’s policies requiring firearms and
change or corrective action:                                     Government vehicles.
    ■   The OIG referred to the Department
        environmental, safety and health concerns
        relating to the removal of reactor control rods   Qui Tams
        by Hanford contractor employees. In
        response to the referral, the Department          Since 1996, the OIG has been instrumental in
        determined that contractor personnel failed to    working with the DOJ in Qui Tam cases. The
        adequately review potential hazards associated    OIG is currently working on 14 Qui Tam lawsuits
        with this project; however, no environmental      involving alleged fraud against the Government
        detriment or significant personnel exposure       with potential liability in the amount of
        occurred. Department management                   approximately $91.2 million. While these cases are
        recommended corrective action to ensure           highly resource intensive, requiring extensive OIG
        improved communication, preparation,              investigative and audit effort, they have proven to
        documentation and handling of future              result in a high return on our investment.
        decontamination and demolition activities.
    ■   In response to an OIG referral, an extent
        of condition review was conducted of
        completion rates for annual employee



                                                            APRIL 1, 2012 – SEPTEMBER 30, 2012          35
                                         SEMIANNUAL
                                         REPORT TO CONGRESS




               Appendix 1 - Reports


          Recovery Act and Recovery Act-Related
                     Reports Issued
                       April 1, 2012 – September 30, 2012

Report                                                         Date                   Questioned
Number                           Title                        Issued      Savings       Costs

OAS-RA-12-07   The Department of Energy’s Weatherization      04-06-12                  $17,000
               Assistance Program Funded under the
               American Recovery and Reinvestment Act
               for the State of New York

OAS-RA-12-08   The Department of Energy’s American            04-19-12   $1,200,000     $12,825
               Recovery and Reinvestment Act –
               New York State Energy Program

OAS-RA-12-09   The Department of Energy’s Energy              04-23-12                $2,205,700
               Efficiency and Conservation Block Grant
               Program Funded under the American
               Recovery and Reinvestment Act for the
               City of Philadelphia

OAS-RA-12-10   The Department of Energy’s American            05-05-12                 $646,633
               Recovery and Reinvestment Act –
               Washington State Energy Program

OAS-RA-12-11   The Department of Energy’s Transportation      05-10-12
               Electrification Program

OAS-RA-12-12   The Department of Energy’s Clean Cities        05-22-12                $7,015,000
               Alternative Fuel Vehicle Grant Program
               Funded under the American Recovery and
               Reinvestment Act

OAS-RA-12-13   The Department of Energy’s Weatherization      06-25-12                 $609,300
               Assistance Program under the American
               Recovery and Reinvestment Act in the
               State of Ohio




36   OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




           Recovery Act and Recovery Act-Related
                      Reports Issued
                          April 1, 2012 – September 30, 2012

Report                                                              Date                 Questioned
Number                               Title                         Issued    Savings       Costs

OAS-RA-12-14     Inquiry into the Procurement of Law Firm         08-28-12
                 Services and Management of Law Firm-
                 Disclosed Organizational Conflicts of
                 Interest by the Department of Energy’s Loan
                 Programs Office

OAS-RA-L-12-04   The Department of Energy’s American              04-30-12    $652,104
                 Recovery and Reinvestment Act – Tennessee
                 State Energy Program

OAS-RA-L-12-05   Follow-up on the Department of Energy’s          07-10-12
                 Implementation of the Advanced Batteries
                 and Hybrid Components Program Funded
                 under the American Recovery and
                 Reinvestment Act

OAS-RA-L-12-06   The Department of Energy’s American              07-20-12
                 Recovery and Reinvestment Act – Missouri
                 State Energy Program

OAS-RA-L-12-07   Examination Report “The Department of            09-20-12
                 Energy’s American Recovery and
                 Reinvestment Act – Ohio State
                 Energy Program”




                                                            APRIL 1, 2012 – SEPTEMBER 30, 2012   37
                                          SEMIANNUAL
                                          REPORT TO CONGRESS




                     Other Audit Reports Issued
                        April 1, 2012 – September 30, 2012

Report                                                           Date                  Questioned
Number                            Title                         Issued     Savings       Costs

IG-0862       Use of Noncompetitive Procurements to            04-10-12
              Obtain Services at the Savannah River Site

IG-0863       The Department of Energy’s $12.2 Billion         04-25-12                $15,000,000
              Waste Treatment and Immobilization
              Plant – Quality Assurance Issues –
              Black Cell Vessels

IG-0864       Extended Assignments at Princeton                05-17-12
              Plasma Physics Laboratory

IG-0865       Efforts by the Department of Energy to           05-25-12
              Ensure Energy-Efficient Management of its
              Data Centers

IG-0866       Integrated Safety Management at Sandia           05-31-12
              National Laboratories

IG-0867       The National Nuclear Security Administration     06-18-12   $3,304,093    $1,260,000
              Contractors’ Disability Compensation and
              Return-to-Work Programs

IG-0868       Inquiry into the Security Breach at the          08-29-12
              National Nuclear Security Administration’s
              Y-12 National Security Complex

IG-0869       Opportunities for Energy Savings at              08-31-12   $6,600,000
              Department of Energy Facilities

IG-0870       Follow-up Audit of the National Nuclear          09-26-12
              Security Administration’s W76 Nuclear
              Warhead Refurbishment Program

OAS-M-12-04   The Department of Energy’s Renewable             04-30-12
              Energy Efforts

OAS-M-12-05   Office of Secure Transportation Capabilities     06-29-12

OAS-L-12-04   Questioned, Unresolved and Potentially           04-19-12
              Unallowable Costs Incurred by Los Alamos
              National Laboratory during Fiscal Years
              2008 and 2009




38   OFFICE OF INSPECTOR GENERAL
                                           SEMIANNUAL
                                           REPORT TO CONGRESS




                       Other Audit Reports Issued
                         April 1, 2012 – September 30, 2012

Report                                                            Date                Questioned
Number                             Title                         Issued    Savings      Costs

OAS-L-12-05    The Joint Actinide Shock Physics Experiment      04-23-12
               Research Facility at the Nevada National
               Security Site

OAS-L-12-06    Oak Ridge National Laboratory’s Waste            07-20-12
               Diversion Efforts

OAS-L-12-07    The Global Threat Reduction Initiative’s         07-20-12
               Molybdenum-99 Program

OAS-L-12-08    Y-12 National Security Complex’s Waste           07-20-12
               Diversion Efforts

OAS-L-12-09    Tank Waste Feed Delivery System Readiness        08-23-12
               at the Hanford Site

OAS-L-12-10    Follow-up Audit of the Stockpile                 09-13-12
               Surveillance Program

OAS-L-12-11    Inquiry into the De-Inventory of Special         09-21-12
               Nuclear Material at Lawrence Livermore
               National Laboratory

OAS-FS-12-09   Management Letter on the Department of           06-18-12
               Energy’s Isotope Development and Production
               for Research and Applications Program’s

OAS-FS-12-10   Southwestern Federal Power System’s Fiscal       07-30-12
               Year 2010 Financial Statement Audit

OAS-V-12-05    Audit Coverage of Cost Allowability for Los      04-03-12             $439,084,955
               Alamos National Laboratory during Fiscal
               Years 2008 and 2009 under Department of
               Energy Contract No. DE-AC52-06NA25396

OAS-V-12-06    Audit Coverage of Cost Allowability for          05-08-12                $1,040,000
               Princeton Plasma Physics Laboratory during
               Fiscal Years 2009-2010 under Department
               of Energy Contract Numbers
               DE-AC02-76CH03073 and
               DE-AC02-09CH11466




                                                          APRIL 1, 2012 – SEPTEMBER 30, 2012   39
                                           SEMIANNUAL
                                           REPORT TO CONGRESS




                      Other Audit Reports Issued
                        April 1, 2012 – September 30, 2012

Report                                                            Date               Questioned
Number                             Title                         Issued    Savings     Costs

OAS-V-12-07   Audit Coverage of Cost Allowability for           05-30-12             $93,496,157
              B&W Technical Services Y-12, LLC, under
              Department of Energy Contract
              No. DE-AC05-00OR22800 during
              Fiscal Year 2010

OAS-V-12-08   Audit Coverage of Cost Allowability for           07-11-12
              DM Petroleum Operations Company under
              Department of Energy Contract Number
              DE-AC96-03PO92207 during Fiscal Years
              2009 through 2011

OAS-V-12-09   Audit Coverage of Cost Allowability for           08-01-12             $10,400,000
              Battelle Energy Alliance, LLC, under Department
              of Energy Contract No. E-AC07-05ID14517
              during Fiscal Year 2010

OAS-V-12-10   Audit Coverage of Cost Allowability for           08-24-12
              Jefferson Science Associates, LLC, under
              Department of Energy Contract Number
              DE-AC05-06OR23177 during Fiscal Years
              2006 – 2010

OAS-V-12-11   Audit Coverage of Cost Allowability for           09-27-12
              Bechtel Marine Propulsion Corporation, under
              Department of Energy Contract No.
              DE-NR0000031 during October 1, 2010
              through September 30, 2011




40   OFFICE OF INSPECTOR GENERAL
                                           SEMIANNUAL
                                           REPORT TO CONGRESS




                Other Inspection Reports Issued
                         April 1, 2012 – September 30, 2012

Report                                                            Date                 Questioned
Number                             Title                         Issued     Savings      Costs

INS-L-12-03   Alleged Health and Wellness Benefit               05-21-12
              Irregularities by a Department Contractor

INS-L-12-04   Alleged Procurement and Hiring Practice           06-22-12
              Irregularities within the Office of Policy and
              International Affairs

INS-O-12-02   Management of Explosives at Selected              07-02-12
              Department Sites

INS-L-12-05   Alleged Ethical and Procurement Concerns          08-16-12
              at the Office of Nuclear Energy

INS-L-12-06   Alleged Storage Capacity Concerns at the          09-26-12
              Strategic Petroleum Reserve

INS-L-12-07   Alleged Waste and Abuse in the Office of          09-27-12
              Economic Impact and Diversity




                                                           APRIL 1, 2012 – SEPTEMBER 30, 2012   41
                                                             SEMIANNUAL
                                                             REPORT TO CONGRESS




                                Appendix 2 - Tables

                   Audit and Inspection Reports with
                Recommendations for Better Use of Funds
                                        April 1, 2012 – September 30, 2012
                                                (Dollars in Thousands)

             The following table shows the total number of reports and the total dollar value of the
                       recommendations that funds be put to better use by management:

                                                                Total              One Time              Recurring                Total
                                                               Number               Savings               Savings                Savings

  A. Those issued before the reporting period                        3          $611,297,657                  $0             $611,297,657
     for which no management decision has
     been made:*

  B. Those issued during the reporting period:                      30            $11,756,197                 $0               $11,756,197

             Subtotals (A + B)                                      33          $623,053,854                  $0             $623,053,854

  C. Those for which a management decision
     was made during the reporting period: *                        14          $110,362,510                  $0             $110,362,510

        (i) Agreed to by management:                                              $86,250,340                 $0               $86,250,340

        (ii) Not agreed by management:                                            $11,900,000                 $0               $11,900,000

  D. Those for which a management decision                          15             $652,104                   $0                $652,104
     is not required:

  E. Those for which no management decision                          4          $524,903,514                  $0             $524,903,514
     has been made at the end of the
     reporting period: *

  Definition of Terms Used in the Table
  Funds put to better use: Funds that could be used more efficiently by implementing recommended actions.
  Unsupported costs: A cost that is not supported by adequate documentation. Questioned costs include
  unsupported costs.
  Management decision: Management’s evaluation of the finding and recommendations included in the audit
  report and the issuance of a final decision by management concerning its response.

*The figures for dollar items included sums for which management decisions on the savings were deferred and, in some cases, awaiting
determination by the Contracting Officer.




  42      OFFICE OF INSPECTOR GENERAL
                                                             SEMIANNUAL
                                                             REPORT TO CONGRESS




 Audit and Inspection Reports with Questioned Costs
                                        April 1, 2012 – September 30, 2012
                                                (Dollars in Thousands)
                The following table shows the total number of reports and the total dollar value
                                      of questioned and unsupported costs.

                                                                        Total               Questioned                      Unsupported
                                                                       Number                 Costs                            Costs

  A. Those issued before the reporting period for                            0              $87,714,732                       $401,801
     which no management decision has
     been made:*

  B. Those issued during the reporting period:                             10              $570,128,112                       $659,458

       Subtotals (A + B)                                                   10              $657,842,844                     $1,061,259

  C. Those for which a management decision was                               9             $570,243,685                       $932,059
     made during the reporting period:*

       (i) Value of disallowed costs:                                                         $1,585,838                      $239,497

       (ii) Value of costs not disallowed:                                                  $16,199,635                         $33,104

  D. Those for which a management decision is                                0                             $0                           $0
     not required:

  E. Those for which no management decision                                  1             $640,057,371                       $788,658
     has been made at the end of the
     reporting period:*

  Definition of Terms Used in the Table
  Questioned costs: A cost that is (1) unnecessary; (2) unreasonable; (3) unsupported; (4) or an alleged
  violation of law, regulation, contract, etc.
  Unsupported costs: A cost that is not supported by adequate documentation. Questioned costs include
  unsupported costs.
  Management decision: Management’s evaluation of the finding and recommendations included in the
  audit and inspection report and the issuance of a final decision by management concerning its response.

*The figures for dollar items included sums for which management decisions on the savings were deferred and, in some cases, awaiting determination by
the Contracting Officer.




                                                                                 APRIL 1, 2012 – SEPTEMBER 30, 2012                          43
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




Reports Lacking
Management Decision

The Department has a system in place to track
audit and inspection reports and management
decisions. Its purpose is to ensure that
recommendations and corrective actions indicated
by audit agencies and agreed to by management
are addressed as efficiently and expeditiously as
possible. There were no audit reports from prior
Semiannual reporting periods that were issued
before the beginning of this reporting period and
for which no management decision had been made
by the end of this reporting period.


Prior Significant
Recommendations Not
Implemented

As of September 30, 2012, closure actions on
recommendations in 40 OIG reports had not been
fully implemented within 12 months from the
date of report issuance. The OIG is committed to
working with management to expeditiously
address the management decision and corrective
action process, recognizing that certain initiatives
will require long-term, sustained, and concerted
efforts. The Department has closed 142
recommendations in the past 6 months.
Management updates the Departmental Audit
Report Tracking System on a quarterly basis, most
recently on September 30, 2012. Information on
the status of any report recommendation can be
obtained through the OIG’s Office of Audits
and Inspections.




 44    OFFICE OF INSPECTOR GENERAL
                                                              SEMIANNUAL
                                                              REPORT TO CONGRESS




                         Summary of Investigative Activities
                                         April 1, 2012 – September 30, 2012
  Cases open as of April 1, 2012                                                                                                        251

  Cases opened during period                                                                                                             63

  Cases closed during period                                                                                                             70

  Multi-Agency Task Force Cases Opened                                                                                                   25

  Qui Tam investigations opened                                                                                                           3

          Total Open Qui Tam investigations as of September 30, 2012                                                                     14

  Cases currently open as of September 30, 2012                                                                                         244

  IMPACT OF INVESTIGATIONS:

  Administrative discipline and other management actions                                                                                 39

  Recommendations to management for positive change and other actions                                                                    33

  Suspensions/Debarments                                                                                                                 13

  Accepted for prosecution*                                                                                                              18

  Indictments                                                                                                                            21

  Criminal convictions                                                                                                                   14

  Pre-trial diversions                                                                                                                    2

  Civil actions                                                                                                                           8

  TOTAL DOLLAR IMPACT**                                                                                                             $19,406,515
  (Fines, settlements, recoveries)

* Some of the investigations accepted during the 6-month period were referred for prosecution during a previous reporting period.
** Some of the money collected was the result of task force investigations involving multiple agencies.




                                                                                   APRIL 1, 2012 – SEPTEMBER 30, 2012                         45
                                                SEMIANNUAL
                                                REPORT TO CONGRESS




          Summary of Investigative Activities (con’t)
                                             HOTLINE ACTIVITY
                              April 1, 2012 – September 30, 2012
Total Hotline calls, emails, letters, and other complaints (contacts)                             2,654

       • Hotline contacts resolved immediately/redirected/no further action                       2,380

       • Hotline contacts predicated for further review and adjudication                           263

       • Hotline predications open at the end of previous reporting period                          11

Total Hotline predications processed this reporting period:                                        274

       • Hotline predications transferred to an OIG Program Office                                  35

       • Hotline predications referred to Department management or other entity for
         information/action                                                                        109

       • Hotline predications closed based upon preliminary OIG activity & review                   77

       • Hotline predications awaiting referral                                                     11

       • Hotline predications open at the end of the reporting period                               42




                            Summary of
                 Section 1553 Retaliation Complaints
                              April 1, 2012 – September 30, 2012

Recovery Act Whistleblower Retaliation Complaints received                                          5

Accepted Complaints carried over from prior period(s)                                               2

Disposition of Whistleblower Retaliation Complaints:

       • Reports issued                                                                             2

       • Complaints Dismissed:

             - Elected another forum                                                                0

             - Complaints withdrawn                                                                 0

             - Upon receipt of Complaint, determined not related to covered funds at the outset     0

             - After investigation, determined not related to covered funds after investigation     0

Recovery Act Complaints that received extensions                                                    1




46    OFFICE OF INSPECTOR GENERAL
                                                            SEMIANNUAL
                                                            REPORT TO CONGRESS




                                                      Peer Reviews
                                       April 1, 2012 – September 30, 2012
                          Results of Reviews Conducted by DOE/OIG:
                                                 Office of Audits and Inspections
  Date of Recent
  Peer Review(s)                             Reviewed OIG                        Outstanding Recommendations

       09/2012                                U.S. Agency for                                None*
                                        International Development




                          Results of Reviews Conducted by DOE/OIG:
                                                       Office of Investigations
  Date of Recent
  Peer Review(s)                             Reviewed OIG                        Outstanding Recommendations

     07/31/2012                              Federal Deposit                                 None*
                                       Insurance Commission-OIG




                        Results of Reviews Conducted by Other OIGs:
                                                      Office of Audits Services
   Date of                                                 Requirements
  Recent Peer                 Reviewing                     For Review                      Outstanding
  Review(s)                      OIG                        Frequency                   Recommendations/Link

       N/A




                        Results of Reviews Conducted by Other OIGs:
                                                       Office of Investigations
    Date of                                                Requirements
  Recent Peer                 Reviewing                     For Review                      Outstanding
   Review(s)                     OIG                        Frequency                   Recommendations/Link

       N/A
* There are no outstanding recommendations from any previous peer reviews.




                                                                             APRIL 1, 2012 – SEPTEMBER 30, 2012   47
                                      SEMIANNUAL
                                      REPORT TO CONGRESS




Feedback Sheet
The contents of the September 2012 Semiannual Report to Congress comply with the
requirements of the Inspector General Act of 1978, as amended. If you have any suggestions
for making the report more responsive, please complete this feedback sheet and return it to:

      United States Department of Energy
      Office of Inspector (IG-10)
      1000 Independence Avenue, SW
      Washington, D.C. 20585

      ATTN: Linda Snider




Name: ____________________________________________________________________________


Daytime Telephone Number: _____________________________________________________


Comments/Suggestions/Feedback:




For media inquiries, please dial (202) 253-2162 for assistance.


 48   OFFICE OF INSPECTOR GENERAL
This page intentionally left blank.
  U.S. Department of Energy
           Office of Inspector General

    Call the HOTLINE if you suspect:
■ Fraud,
■ Waste,
■ Abuse,
■ Mismanagement by a DOE Employee, Contractor, or Grant
  Recipient;
or have a
■ Whistleblower Retaliation Complaint related to American
  Reinvestment and Recovery Act funds


                   Call
     1-800-541-1625 or (202) 586-4073

  Additional information on the OIG and reports can be found at
                      www.ig.energy.gov




                 U.S. Department of Energy
                 1000 Independence Avenue, S. W.
                     Washington, DC 20585
sar covers 1 and 4.qxd   10/26/12   3:42 PM   Page 1
